<html>
<title> - H.R. 154, H.R. 2501, H.R. 2619, H.R. 2623 AND H.R. 3056</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
        H.R. 154, H.R. 2501, H.R. 2619, H.R. 2623 AND H.R. 3056

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                      Thursday, September 25, 2003

                               __________

                           Serial No. 108-60

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

89-515              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey               Neil Abercrombie, Hawaii
Mark E. Souder, Indiana              Solomon P. Ortiz, Texas
Walter B. Jones, Jr., North          Ron Kind, Wisconsin
    Carolina                         Madeleine Z. Bordallo, Guam
Randy Neugebauer, Texas              Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, September 25, 2003.....................     1

Statement of Members:
    Bachus, Hon. Spencer, a Representative in Congress from the 
      State of Alabama, Oral statement on H.R. 2623..............     5
    Case, Hon. Ed, a Representative in Congress from the State of 
      Hawaii.....................................................    10
        Prepared statement on H.R. 2619..........................    12
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement on H.R. 154, H.R. 2501, H.R. 2619, 
          H.R. 2623, and H.R. 3056...............................     2
    McIntyre, Hon. Mike, a Representative in Congress from the 
      State of North Carolina....................................     8
        Prepared statement on H.R. 2501..........................     9
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     3
    Paul, Hon. Ron, a Representative in Congress from the State 
      of Texas...................................................     4
        Prepared statement on H.R. 154...........................     5

Statement of Witnesses:
    King, Becky, Village Manager, Bald Head Island Village 
      Council and Community, Bald Head Island, North Carolina....    25
        Prepared statement on H.R. 2501..........................    27
    Oberholster, Chris, Director of Conservation Programs, 
      Alabama Chapter, The Nature Conservancy....................    29
        Prepared statement on H.R. 2623..........................    31
    Riley, Clint, Special Assistant to the Director, Fish & 
      Wildlife Service, U.S. Department of the Interior..........    16
        Prepared statement on H.R. 154, H.R. 2501, H.R. 2619, 
          H.R. 2623, and H.R. 3056...............................    18
    Westmoreland, Hon. Greg B., Matagorda County Judge, Bay City, 
      Texas......................................................    24
        Prepared statement on H.R. 154...........................    24

Additional materials supplied:
    Brown-Waite, Hon. Ginny, a Representative in Congress from 
      the State of Florida, Statement submitted for the record on 
      H.R. 3056..................................................    16


 LEGISLATIVE HEARING ON H.R. 154, A BILL TO EXCLUDE CERTAIN PROPERTIES 
FROM THE JOHN H. CHAFEE COASTAL BARRIER RESOURCES SYSTEM; H.R. 2501, A 
BILL TO CLARIFY THE BOUNDARIES OF COASTAL BARRIER RESOURCES SYSTEM CAPE 
  FEAR UNIT NC-07P; H.R. 2619, A BILL TO PROVIDE FOR THE EXPANSION OF 
 KILAUEA POINT NATIONAL WILDLIFE REFUGE; H.R. 2623, A BILL TO PROVIDE 
FOR THE EXPANSION OF THE CAHABA RIVER NATIONAL WILDLIFE REFUGE IN BIBB 
COUNTY, ALABAMA; AND H.R. 3056, A BILL TO CLARIFY THE BOUNDARIES OF THE 
JOHN H. CHAFEE COASTAL BARRIER RESOURCES SYSTEM CEDAR KEYS UNIT P25 ON 
                     OTHERWISE PROTECTED AREA P25P.

                              ----------                              


                      Thursday, September 25, 2003

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:00 a.m, in 
Room 1324, Longworth House Office Building, Hon. Wayne 
Gilchrest [Chairman of the Subcommittee] presiding.
    Present: Representatives Gilchrest, Pallone and Bordallo.

   STATEMENT OF HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Good morning, everybody. My colleagues, 
thank you for coming this morning to testify on various bills 
that there is apparently a great deal of interest in.
    I am pleased to convene this hearing today on legislation 
to address the boundaries of certain units contained within the 
Coastal Barrier Resources System and the National Wildlife 
Refuge System.
    The first three bills, H.R. 154, H.R. 2501 and H.R. 3056, 
propose to remove some 100 acres of fastland from the Coastal 
Barrier Resources System. This system was first created in 1982 
and it has become one of the Nation's best coastal 
environmental laws. While this law does not prevent a single 
landowner from building on a coastal barrier, it clearly states 
that, if your property is located within the system, then you 
are not eligible for Federal flood insurance, Federal highway 
and sewage funds, or a host of other development incentives.
    Instead of removing property, I would support enlarging the 
size of the system. Nevertheless, I am pleased to hear the 
testimony of our colleagues and their arguments on why these 
unit maps should be changed.
    The final bills we will consider are H.R. 2619 and H.R. 
2623. These measures expand the boundaries of the Kilauea Point 
and Cahaba River National Wildlife Refuges.
    H.R. 2619, introduced by Congressman Case of Hawaii, would 
double the size of the Kilauea Point unit. This refuge, which 
was acquired by the Fish and Wildlife Service in 1984, contains 
an historic lighthouse and essential habitat for a number of 
listed species. I look forward to hearing a justification for 
this expansion, a description of the proposed refuge property, 
and an indication of the amount and source of Federal funds to 
acquire them.
    H.R. 2623, introduced by Congressman Bachus, would greatly 
expand the size of the Cahaba River Unit. The Cahaba River is 
the longest free-flowing river in Alabama and it may have the 
greatest concentration of fish biodiversity per mile for any 
river in the United States. That's quite an extraordinary 
thing.
    In recognition of the importance of this ecosystem, 
Congress legislatively created the Cahaba River National 
Wildlife Refuge in 2000. All of us are interested in hearing 
the justification for increasing the size of this refuge from 
its statutory level of 3,500 acres to approximately 30,000 
acres--which sounds like a lot. But if you look at the refuges 
in Alaska, which are millions--one is 13 million acres--this is 
small in comparison. So we would like to take a close look at 
this, Mr. Bachus, and try to accommodate our colleague.
    I look forward to hearing from our distinguished witnesses 
today. In the two part hearing that we have today, we really do 
want to take everybody's testimony, the way it is expressed and 
the details that they give us, into serious consideration. 
There is always controversy about more Federal land, and there 
are always controversies surrounding the coastal barriers of 
the U.S. and how they should be protected. So I want to welcome 
all the witnesses here this morning. We look forward to your 
testimony. We will take each of your individual testimonies 
into serious consideration.
    At this point I would like to recognize the gentleman from 
New Jersey for his opening remarks. Mr. Pallone.
    [The prepared statement of Mr. Gilchrest follows:]

       Statement of The Honorable Wayne T. Gilchrest, Chairman, 
      Subcommittee on Fisheries Conservation, Wildlife and Oceans

    Good morning. I am pleased to convene this hearing today on 
legislation to address the boundaries of certain units contained within 
the Coastal Barrier Resources System and the National Wildlife Refuge 
System.
    The first three bills, H.R. 154, H.R. 2501 and H.R. 3056, propose 
to remove some 100 acres of fastland from the Coastal Barrier Resources 
System. This system was first created in 1982 and it has become one of 
this nation's best coastal environmental laws. While this law does not 
prevent a single landowner from building on a coastal barrier, it 
clearly states that if your property is located within the System, then 
you are not eligible for federal flood insurance, federal highway and 
sewage funds or a host of other development incentives.
    Instead of removing property, I would support enlarging the size of 
the System. Nevertheless, I am pleased to hear the testimony of our 
Colleagues and their arguments on why these unit maps should be 
changed. The final bills we will consider are H.R. 2619 and H.R. 2623. 
These measures expand the boundaries of the Kilauea Point and Cabaha 
River National Wildlife Refuges.
    H.R. 2619, introduced by Congressman Case of Hawaii, would double 
the size of the Kilauea Point Unit. This refuge, which was acquired by 
the Fish and Wildlife Service in 1984, contains an historic lighthouse 
and essential habitat for a number of listed species. I look forward to 
hearing a justification for this expansion, a description of the 
proposed Refuge property, and an indication of the amount and source of 
federal funds to acquire them.
    H.R. 2623, introduced by Congressman Bachus, would greatly expand 
the size of the Cahaba River Unit. The Cahaba River is the longest 
free-flowing river in Alabama and it may have the greatest 
concentration of fish biodiversity per mile for any river in the United 
States. In recognition of the importance of this ecosystem, Congress 
legislatively created the Cahaba River National Wildlife Refuge in 
2000. I am interested in hearing the justification for increasing the 
size of this Refuge from its statutory level of 3,500 acres to 
approximately 30,000 acres and the cost of such acquisition.
    I look forward to hearing from our distinguished witnesses and I am 
now pleased to recognize our Ranking Democratic Member, Congressman 
Frank Pallone.
                                 ______
                                 

 STATEMENT OF HON. FRANK PALLONE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman, for holding this 
hearing on legislation affecting two of the U.S. Fish and 
Wildlife Service's most important programs--the National 
Wildlife Refuge System and the Chafee Coastal Barrier Resources 
System.
    I want to first welcome our friends who are assembled here 
to testify this morning. We are honored to have you join us and 
I look forward to hearing your presentations.
    Mr. Chairman, as you know, any bill that comes before this 
Subcommittee that seeks to alter the boundaries of any unit or 
otherwise protected area in the coastal barrier resource system 
is potentially controversial and deserving of our patient and 
careful scrutiny. To date, our deference to caution in this 
Subcommittee has ensured that all approved boundary correction 
legislation represents legitimate technical corrections rather 
than undeserved windfalls for well-connected developers seeking 
Federal flood insurance or other Federal development subsidies.
    In this respect, Mr. Chairman, I commend you for your 
tireless efforts to protect the coastal barrier resource system 
from the ``death of a thousand cuts'' effectively.
    It would appear, from my own review of the three CBRA bills 
before this Subcommittee today, that both H.R. 154 and H.R. 
2501 appear to be legitimate corrections. In fact, in regards 
to H.R. 2501, I cannot recall another comparable bill that has 
undergone such an extensive review, both in the field and here 
in Congress, and our colleague from North Carolina, Congressman 
McIntyre, should be recognized for his perseverance on behalf 
of his constituents.
    I am sad to say that I must withhold my support for H.R. 
3056. The information provided to date by the Fish and Wildlife 
Service is incomplete and their proposed boundary corrections 
push an entirely new strategy to revise CBRA maps. I urge the 
Subcommittee to closely review the circumstances underlying 
this bill before it is put to a vote.
    The other two bills before the Subcommittee, H.R. 2619 and 
H.R. 2623, would expand existing National Wildlife Refuges in 
Alabama and Hawaii. I commend the bills' sponsors for their 
interest in enhancing the land and water resources at both 
refuges.
    I support the legislation introduced by our friend and 
colleague from Hawaii, Congressman Ed Case. I would, however, 
like to better understand why we should support H.R. 2623, 
which would increase by ten times the Cahaba National Wildlife 
Refuge when we only created this refuge less than 3 years ago. 
In this respect, I await any information in this regard to be 
offered by the bill's sponsor, Congressman Bachus, and other 
witnesses.
    Of course, considering the policy of this administration to 
cut funding and oppose additional land acquisition for refuges, 
parks, forests and other public lands, both bills still face an 
uncertain future outside of this Subcommittee. But I want to 
thank everyone for being here, and the sponsors.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    We welcome Congressman Paul, Congressman Bachus, 
Congressman McIntyre, and Congressman Case. Thanks for coming 
this morning. We will start with Congressman Ron Paul.

 STATEMENT OF HON. RON PAUL, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF TEXAS

    Mr. Paul. Thank you, Mr. Chairman.
    I come with a modest request, not thousands of acres but 16 
acres. It is a correction that we would like to see made.
    I want to thank you for holding this hearing today to gain 
testimony relative to legislation to correct certain errors 
made in the mapping process relative to the Coastal Barriers 
Resource Act, or CBRA. I also want to thank the staff of the 
U.S. Fish and Wildlife Service for their efforts in helping to 
correct this error, and the local government officials and 
property owners who brought this problem to my attention.
    Simply, as you will hear today from Fish and Wildlife, more 
than some 16 acres of property has been placed in a CBRA-
designated area in Matagorda County, TX. My mistake. This has 
prohibited more than a dozen landowners from participating in 
State and Federal programs in which all other landowners 
similarly situated may participate. My bill would fix this 
error. I mentioned the local governments and property owners, 
and in your next panel you will hear from the top elected 
official from Matagorda County.
    Before closing, I again want to thank the Chairman and 
Committee Members for holding this hearing, and ask that this 
legislation receive expeditious consideration so that these 
errors might be corrected prior to the next significant storm 
event occurring in Matagorda County. These past couple of years 
have seen particularly devastating storms hit this area. 
Fortunately, even more destruction has not already occurred, 
but now we are pressed by time.
    Unfortunately, I have to leave shortly after this 
presentation to prepare for an International Relations 
Committee and a Banking hearing, but I ask that you listen 
closely to the testimony of the Fish and Wildlife staff member, 
as well as my constituent, Judge Greg Westmoreland, who is 
County Judge in Matagorda County, which contains this area 
affected by this error. Judge Westmoreland and his staff have 
already been very helpful to us in resolving the issues 
surrounding the correction of this error.
    Again, Mr. Chairman and Committee members, thank you.
    [The prepared statement of Mr. Paul follows:]

Statement of The Honorable Ron Paul, a Representative in Congress from 
                           the State of Texas

    Mr. Chairman:
    I want to thank you for holding this hearing today to gain 
testimony relative to legislation to correct certain errors made in the 
mapping process relative to the Coastal Barriers Resources Act or 
CoBRA. I also want to thank the staff of the U.S. Fish and Wildlife 
Service, for their efforts in helping to correct this error, and the 
local government officials and property owners who brought this problem 
to my attention.
    Simply, as you'll hear today from Fish and Wildlife, more than some 
16 acres of property has been placed in a CoBRA-designated area in 
Matagorda County, Texas, by mistake. This has prohibited more than a 
dozen landowners from participating in state and federal programs in 
which all other landowners similarly situated may participate. My bill 
would fix this error. I mentioned the local governments and property 
owners and, in a moment, I will introduce the top elected official from 
Matagorda County. Before doing that I again want to thank the Chairman 
and Committee Members for holding this hearing and ask that this 
legislation receive expeditious consideration so that these errors 
might be corrected prior to the next significant storm event occurring 
in Matagorda County. These past couple years have seen particularly 
devastating storms hit this area. Fortunately, even more destruction 
has not already occurred in that area, but we are pressed by time.
    Now I'm pleased to introduce your next witness, my constituent, 
Judge Greg Westmoreland, who is County Judge in Matagorda County, which 
contains the area affected by this error. Judge Westmoreland and his 
staff have been very helpful in resolving the issues surrounding the 
correction of this error, Judge Westmoreland.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Paul.
    Mr. Bachus.

STATEMENT OF HON. SPENCER BACHUS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ALABAMA

    Mr. Bachus. I thank you, Chairman Gilchrest and Ranking 
Member Pallone.
    Taking you back hundreds of thousands of years in the 
United States, as you all know, we had an Ice Age. That ice 
occupied a great percentage of the country. However, it stopped 
just north of the Cahaba River in Alabama. Because of that, 
what is called the Mobile Basin, which is a river system made 
up of seven different rivers in Alabama, contained more species 
than any other basin in the United States. Literally hundreds 
of species were found nowhere else because they were basically 
destroyed during the Ice Age.
    Of the species which weren't destroyed thousands of years 
ago, many of them have been destroyed in the last 100 years. 
You will see testimony that we have submitted in this regard, 
and the Nature Conservancy will also give testimony about this. 
There have been more extinctions--In fact, I will just read you 
this:
    About 50 percent of all documented U.S. species' 
extinctions since European settlements have occurred in this 
century in the Mobile River Basin in Alabama. So half of the 
extinctions in the United States have occurred this century in 
this one river basin.
    Now, of all the rivers in this basin--and that was 
testimony by the Nature Conservancy--of all the species in 
these rivers, all the rivers except the Cahaba River were 
dammed for hydroelectric dams. All the other rivers have been 
dredged for barge traffic. The only river that has never been 
dredged and has never been dammed is the Cahaba River. It is 
one of the smallest rivers in Alabama, and yet it contains over 
100 endangered species.
    The great percentage of these species occurs in about a 22 
mile stretch of the river. This stretch of the river, because 
it is a very rural part of Alabama, a very remote part and hard 
to get to, those species have basically been protected in that 
part of the river.
    It is also habitat for several bird species which actually 
have large populations in Central and South America but are 
seen in the United States. They only land in two locations--one 
down near the Mobile River Bay, and then in this refuge area 
within this proposed 30,000 acres as they travel north.
    Mr. Gilchrest. Spence, what kind of birds are those?
    Mr. Bachus. Warblers, waterthrush--I have a list of them 
and I can give them to you. It has been identified that this is 
their flyaway.
    We're also talking about a river--it has been established 
and we've given testimony on this--that has 131 fish species in 
this one river. That is more species than in the whole State of 
California, which is the most biodiverse State in the Union. 
Alabama ranks right up with Hawaii, California and Texas as the 
most biodiverse, for different reasons.
    What is being done in a 50-mile stretch above this refuge 
is literally over $100 million worth of projects are underway 
to protect that part of the river. Now, that part of the river 
doesn't contain the species. Most of them are contained within 
this 25-mile area. But they are actually doing this work above 
that--and you're talking about Jefferson County, you're talking 
about private groups, the city of Hoover spending $7 million, 
one city to establish greenways along this river, because it 
has been recognized as a treasure trove of endangered and 
threatened species. So you're talking about over $100 million 
in State and local efforts above that.
    In this 22 mile stretch there are landowners all willing to 
sell. Most of these are corporations out of Alabama, and they 
have actually said that they will sell their land for a fair 
amount. We established the first 3,500 acres of the wildlife 
refuge, in actually an area that we felt was a good starting 
point. We have already acquired 90 percent of that land within 
3 years.
    There are national groups and environmentalists. We have 
the Cahaba River Society in Alabama and it has its own license 
plates in the State of Alabama. It's one of the most popular 
licenses in the State of Alabama, because this is the only 
place that these different fish, crayfish, mussels, abound.
    Since the focus on this area, they have actually found 
seven plants that do not exist anywhere else. The reason for a 
lot of this biodiversity is what's called dolomite 
outcroppings, which are very rich in minerals. Where the river 
flows over them, a lot of different species congregate there 
because of the mineral content. It is also a flat river and 
it's wide and shallow.
    It is a beautiful river, containing some of what's called 
the Cahaba lily, which is a beautiful plant. It is found 
nowhere else except on one isolated stretch of one other river. 
Below there, an 80 mile stretch below there, the property 
owners have all agreed to come together with the counties 
there. They're spending approximately $20 million worth of 
local and State money to preserve that stretch. The one stretch 
that actually needs Federal protection and needs to be 
established is this stretch.
    Now, if this was so biodiverse, why did we just start doing 
anything in the last four or 5 years? We literally have land 
and refuges in Alabama today that are three and four times this 
size that don't protect anywhere near this type diversity. It 
was simply a political thing. You had members that were active 
and concerned about these issues and they set aside refuges. 
You know, the interest has just not been there in Congress. No 
one has tried to do anything about this.
    Bibb County, a very rural county that this river flows 
through, is the second poorest county in the State. They have 
all sorts of problems in keeping their schools open. They have 
all sorts of problems with their roads. It is really an 
impoverished area. Despite that, they recently pledged $80,000 
and put it in an escrow account to help manage this wildlife 
refuge and protect it. That is an incredible amount of money 
for a county that has leaky roofs in their schools. There is 
quite a bit of testimony that you all have seen.
    But this will still be a small refuge, even when it's 
expanded. It will be right along the river and it will protect 
that stretch of the river, which is very sensitive to--We've 
had cases of people coming in and taking four-wheelers and 
driving along the river, just basically tearing up miles of the 
river.
    We will either act on this in the next few years or we'll 
lose it. It is part of a comprehensive effort. I can tell you 
that when you have people spending $100 million north of there 
to protect just the water that flows into this area, then the 
amount of money that we're spending in this area, which is 
about a fifth of that, to protect the actual species is of 
primary importance. That is the Federal role we're asking for. 
So the investment would be highly leveraged. I can give you all 
these documents----
    Mr. Gilchrest. We'll take a very close look at that, Mr. 
Bachus.
    Mr. Bachus. Thank you.
    Mr. Gilchrest. We really appreciate your testimony and your 
discussion about biodiversity is not often heard in such 
eloquent passion.
    Mr. Bachus. Thank you.
    Mr. Gilchrest. I would quickly mention that there is an 
interesting book about 10 years old now titled ``Water.'' It's 
about the history of water in the United States. It's the 
history of the hydrologic cycle of water basically over the 
last 500 years, something similar to what you mentioned about 
the last Ice Age and how we have lost a lot of biodiversity in 
the last 100 years. The author is Alice Outwater. There are 
some fascinating insights in that book.
    But thank you for your testimony.
    Mr. Bachus. Thank you.
    Mr. Gilchrest. Mr. McIntyre.

 STATEMENT OF HON. MIKE McINTYRE, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF NORTH CAROLINA

    Mr. McIntyre. Thank you, Mr. Chairman.
    Mr. Chairman and Ranking Member Pallone and other members 
of the Subcommittee, thank you for allowing me to come before 
you on H.R. 2501, which is a bill to clarify the boundaries of 
Cape Fear Unit NC07P, an ``otherwise protected area'' designed 
by the Coastal Barrier Improvement Act of 1990.
    As you recalled, and as you were kind enough to mention 
earlier, I testified before this Committee in April of last 
year, so I will keep my remarks fairly brief in order to allow 
other witnesses time to testify. In another panel this morning, 
Becky King, who is the Town Manager of the village of Bald Head 
Island, will also be speaking to you about some of the 
particulars.
    In general, though, the Coastal Barrier Resources Act was 
an effort to address problems caused by coastal barrier 
development. CBRA, of course, restricts those Federal 
expenditures and financial assistance, including Federal flood 
insurance for development on these coastal barrier islands. In 
addition, with the adding of the otherwise protected areas to 
the system, OPAs are undeveloped coastal barriers within the 
boundaries of the lands reserved for conservation purposes, 
which I'm sure the Committee is familiar with.
    Now, the Fish and Wildlife Service has advised me that the 
maps of the area known as NC07P are inaccurate. That is the 
essence of our concern today. These errors in the maps deny 
flood insurance to certain property owners on Bald Head Island, 
NC. The errors result from problems inherent in translating 
lines drawn on large scale maps used for designations into 
precise, on-the-ground property lines.
    However, this problem is now fixable with improved 
technology available to the Fish and Wildlife Service. The 
mistakes, admitted by Fish and Wildlife, that led to the Bald 
Head Island properties being placed within the outer boundary 
of NC07P were clearly not intended by Congress when the maps 
were created. This bill would amend the boundaries of NC07P, 
the otherwise protected area established during the 1990 
amendments, that was intended to include these multiple 
contiguous pieces of property owned by the Bald Head Island 
Land Conservancy, the State of North Carolina, the U.S. Army, 
and held for conservation purposes.
    Analysis by the Fish and Wildlife Service indicates that 
the existing NC07P does not follow the actual protected area 
boundaries and erroneously includes private property that is 
not an inholding.
    This bill would simply replace those two maps that are 
incorrectly drawn with new maps that do accurately depict the 
digitized OPA boundaries. The affected parties are all in 
agreement, that the new maps portray accurate boundaries. So 
when this is done, which can only be done by an act of 
Congress, this correction could be made. As you know, the 
statute doesn't provide for administrative correction of such 
an error.
    In the past, Congress has enacted legislation in several 
instances where the stated purpose was to remove private 
property from the mapped outer boundary of an otherwise 
protected area. Also, the technical changes called for in this 
legislation have another benefit--vastly increasing the overall 
acreage in the map.
    Now, as the hurricane season, as we well know in North 
Carolina, and unfortunately as many of our neighbors in other 
States know, is now in full swing. There are landowners on Bald 
Head Island who, by no fault of their own, will continue to be 
left unprotected if a storm strikes the Cape Fear region, as 
did six hurricanes during my first 4 years in office. 
Therefore, this matter requires immediate attention. I would 
greatly appreciate your prompt consideration of this.
    The good news is that, as we look at the additional land, 
in addition to correcting the maps that are available to be 
protected, we have an opportunity that the U.S. Fish and 
Wildlife Service and the State of North Carolina have 
identified as additional acreage that could be eligible to be 
added to NC07P, with a total net increase of 5,862 acres. Of 
this, 2,362 are fastland or land above mean high water and 
another 3,500 acres are wetlands and open water.
    So there is a double benefit here. The main issue, of 
course, is to allow these property owners to be able to get 
Federal flood insurance and simply correct the maps, and 
second, there is the added benefit of additional acreage that 
could be made available.
    We see this as a ``win win'' situation, a win for 
conservancy, a win for the environment and the government, and 
also, of course, a win for those who would just simply like to 
be able to protect their property.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. McIntyre follows:]

Statement of The Honorable Mike McIntyre, a Representative in Congress 
                    from the State of North Carolina

    Chairman Gilchrest, Ranking Member Pallone and Members of the 
Subcommittee: Thank you for holding a hearing on H.R. 2501, a bill to 
clarify the boundaries of Cape Fear Unit NC07P an ``otherwise protected 
area'' (OPA) designated by the Coastal Barrier Improvement Act of 1990.
    As you recall, I testified before this Committee on April 11, 2002, 
on this same matter, so I will keep my remarks brief in order to allow 
the other witnesses ample time to testify. However, as the sponsor of 
this legislation, I would like to speak to you in support of the bill.
    Congress enacted the Coastal Barrier Resources Act (CBRA) in an 
effort to address problems caused by coastal barrier development. As 
you know, CBRA restricts Federal expenditures and financial assistance, 
including Federal flood insurance, for development on coastal barriers 
in the CBRAs. In addition, the Coastal Barrier Improvement Act of 1990 
added ``otherwise protected areas'' to the System. OPAs are undeveloped 
coastal barriers within the boundaries of lands reserved for 
conservation purposes, such as wildlife refuges and parks. While they 
were not made part of the Coastal Barrier Resources System, the 
Congress forbade the issuance of new flood insurance or any Federal 
development-related assistance in OPAs.
    The Fish and Wildlife Service has now advised me that the maps of 
the area, known as NC07P, are inaccurate. The errors in the maps deny 
flood insurance to certain property owners on Bald Head Island, North 
Carolina. The errors result from the problems inherent in translating 
lines drawn on the large-scale maps used for designations into precise, 
on-the-ground property lines. However, this problem is now fixable due 
to improved technology available to the Fish and Wildlife Service. The 
mistakes that led to the Bald Head Island properties being placed 
within the outer boundary of NC07P was clearly not intended by Congress 
when maps were created.
    While correcting the lines around Bald Head Island, the Fish and 
Wildlife Service, working with the State of North Carolina and the 
local communities contained within NC07P, identified 2,471 acres that 
are eligible for addition to NC07P. Therefore, when the 109 acres are 
removed from the 2,471 that would be added, the net gain to NC07P is 
2,362 acres.
    As you know, only an act of Congress may revise CBRA boundaries. 
The statute does not provide authority for an administrative correction 
of such an error. In the past, Congress has enacted legislation in 
several instances where the stated purpose was to remove private 
property from the mapped outer boundary of an otherwise protected area. 
Furthermore, the technical changes called for in my legislation have 
the added benefit of vastly increasing the overall acreage in the map. 
As hurricane season approaches, there are landowners on Bald Head 
Island who, by no fault of their own, will be left unprotected if a 
storm hits the lower Cape Fear region. Therefore, this matter requires 
immediate attention, and I appreciate your prompt consideration of this 
important bill.
    Once again, thank you for allowing me to testify on my legislation, 
and I urge the Subcommittee to report this bill to the full Committee 
as soon as possible. Thank you.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. McIntyre.
    Mr. Case.

 STATEMENT OF HON. ED CASE, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF HAWAII

    Mr. Case. Chair Gilchrest, Ranking Member Pallone, members 
of the Subcommittee, good morning and ``aloha'' to you. Thank 
you very much for considering H.R. 2619, my bill, which is 
cosponsored by a Subcommittee member and my colleague from 
Hawaii, Mr. Abercrombie, to authorize an expansion of the 
Kilauea Point National Wildlife Refuge on the Island of Kauai.
    Let me put this bill in context, Mr. Chairman, because I 
think it's important to understand the context for this bill, 
the big picture of this bill, and to describe to you why it is 
so vital in the big picture of what is happening in Hawaii 
today.
    When we talk about biodiversity, Hawaii is the most 
biodiverse place in this country and possibly on this planet. 
It has an incredible array and diversity of resources that all 
arise from its history. Imagine its history, where you have an 
isolated island chain in the middle of the biggest ocean in our 
world, that is essentially cutoff from any contact with 
humanity for hundreds of thousands, millions of years, 
developing its own, unique resources, indigenous resources, 
primarily in the area of plant and animal species, bird 
species. It is the biodiversity capital of our world.
    That biodiversity and the unique natural resources of 
Hawaii that go with it, whether they be wild and scenic places 
or marine resources, are under attack. They are under threat of 
their very survival across my entire State. I represent the 2nd 
District, which has virtually all of these resources. The 1st 
District is Honolulu and the 2nd District is everything else.
    The wildlife, the wild and scenic places, the coastal and 
marine resources are under attack. Really, that attack is 
coming from two directions. The first is simply exposure to the 
rest of the world, biological exposure to the rest of the 
world, on exotic species and invasive species. Much of our time 
in Hawaii is spent in protecting what is indigenous to Hawaii 
from what is coming from outside of Hawaii.
    A far more insidious threat comes from development, from 
us, from us humans, and the development is particularly severe 
in any of the coastal places throughout our entire State. So 
this bill is one of several efforts that I have undertaken, and 
my predecessor, Mrs. Mink, have undertaken in the 2nd District, 
to try to bring the Federal Government's resources to bear on 
protecting these resources.
    This is an effort in which my community is entirely 
supportive, so on all islands we have some initiatives that go 
to the heart of this matter, protecting what is under threat 
from extinction.
    The Kilauea Point National Wildlife Refuge was created in 
1985. It was created out of the old Kilauea Point Lighthouse, 
which was owned by the U.S. Coast Guard. It started off as 31 
acres, it expanded up to a little over 203 acres. It is 
particularly renowned not only for the scenic value, but for 
its native seabird habitat. We have all kinds of species. Some 
of them are up here on the board. We have the Hawaiian coot up 
there on the upper right, the Alae 'ke'oke'o; we have the 
Hawaiian goose, which is the ne ne; we have the Hawaiian duck, 
which is the Koloa right there; and down at the bottom, the 
Hawaiian moorhen, Alae 'ula. These all have Hawaiian names 
because these were known to the Hawaiians as indigenous to the 
Hawaiian Islands. They are all under threat. They all live at 
this refuge.
    In addition, what you can see here is really a unique 
vista. The pictures give you some context for where this is 
located in Hawaii and how it fits into our local lifestyle. 
This refuge is one of the most heavily traveled refuges among 
all of the refuges. It has 300,000 visitors coming through it 
every year for not only its scenic value, but also its value as 
a species habitat protection area.
    It also has a really unique public/private partnership. It 
is adopted, protected, enhanced and supported by the community 
through the Kilauea Point Natural History Association and 
otherwise.
    The bill was introduced because we have a unique 
opportunity here. We have three landowners that own the 
adjacent landholdings of a little over 200 acres, 219 acres. 
These landowners are shown here. In the upper left is the 
existing refuge, and then we can see the parcels that we're 
talking about here.
    These parcels include a couple of extremely valuable areas 
from the perspective of the refuge. First of all, the beach 
itself, the control of the coastline. Second, the Kilauea 
River, which comes into the ocean right there, and the estuary 
of the Kilauea River which creates an incredibly diverse 
habitat, which I think is really the most valuable part of this 
parcel from the perspective of a National Wildlife Refuge. And 
third, the river itself going up to Kilauea Falls, which is in 
the upperlands there. So you're really talking about 
controlling an entire river system down to the ocean, plus the 
ocean itself, protecting the ocean.
    One of the questions is, are these three owners willing 
sellers. The answer is absolutely yes. We have been in contact 
with all three of them. One of them is willing to donate the 
beach parcel to the U.S. Government, to donate it. I think 
that's an incredibly valuable opportunity for the U.S. 
Government. The others are willing to exchange their lands for 
other Federal income-producing lands, to the degree that is 
available.
    One question that has been asked is what is the value of 
these lands. I can tell you that the tax-assessed value for 
real property tax purposes is a little over $5 million right 
now. We are talking about coastal lands that are under threat 
from development because they are valuable, because they are 
coveted. I am confident that we can find the resources or the 
land to exchange to add to this refuge.
    The community is solidly behind this. I have appended to my 
testimony supportive testimony from the mayor of Kauai, from 
the State legislators on Kauai, and I anticipate a resolution 
when the city council wakes up and votes today, passed 
unanimously on the Island of Kauai, and in the last couple of 
days I have received over 100 letters of support from the 
Kilauea community.
    A couple of questions just to answer, because I know there 
are questions from the Committee and perhaps others. The 
administration has testified that, although they understand the 
need for this, they are not necessarily supportive of 
acquisition of all of these lands.
    I would point out two or three things along those lines. 
This is authorization. What we don't want to do is have an 
opportunity to acquire without the authorization. These things 
happen very fast in today's market on Kauai. If you have an 
opportunity, you want to go out and get it right then, whether 
it's donation of private contributions or exchange. You want it 
to be preauthorized.
    Second, the administration says it might not need all of 
it. I would suggest that what we want to do is to over-
authorize and then decide exactly what we want to acquire. I 
don't think it's overauthorization, by the way. I think all of 
this is going to be a valuable addition, and 50 years from now 
we're not going to regret the authorization and acquisition of 
all of these properties. But the bill does provide that what 
can actually be acquired is some or all, so we can take this in 
segments as we go.
    One question was asked about some ancient Hawaiian taro 
fields that are located in this estuary system. These taro 
fields are not in use right now, so there is no current use of 
these lands for agriculture. We're not displacing anybody that 
is agriculture.
    Finally, the question asked is what will happen if this 
property is not acquired by the Federal Government. This 
property will be developed and it will be lost. This property 
is in the path of development. The owners are willing to convey 
to the Federal Government, either by donation or exchange or 
market value, but they can't wait forever. They eventually will 
either develop or sell, and the next owner will go ahead and 
develop.
    So, from my perspective, this is imminent. This is 
something we should proceed with right now, and I would ask for 
the Subcommittee's support on this.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Case follows:]

 Statement of the Honorable Ed Case, a Representative in Congress from 
                          the State of Hawaii

    Chairman Gilchrest, Ranking Member Pallone, and Members of the 
Subcommittee:
    Thank you for the opportunity to testify today in support of my 
bill to authorize expansion of the Kilauea Point National Wildlife 
Refuge on the Island of Kauai. This bill is a vital component of one of 
my principal goals in Congress: to ensure that federal and/or state or 
private protection is extended to as many of Hawaii's threatened and 
irreplaceable areas as possible, both to ensure the survival and 
recovery of Hawaii's unique endangered and threatened species and to 
preserve the remaining unspoiled natural treasures of our beautiful 
islands for future generations.
    The Kilauea National Wildlife Refuge, located at the northernmost 
tip of Kauai, was established in 1985. The initial acreage of 31 acres 
was increased to 203 acres through additional acquisitions in 1993 and 
1994. The refuge provides invaluable habitat for many native seabirds, 
including the Laysan Albatross, the Red-footed Booby, and the Wedge-
tailed Shearwater, as well as for the endangered nene (Hawaiian Goose). 
Endangered native plants have also been reintroduced to the area. The 
Refuge and its historic lighthouse have become one of Hawaii's world-
class tourist destinations, visited by some 300,000 visitors each year. 
It is one of the most heavily visited refuges in the United States.
    The proposed expansion area comprises three parcels of some 219 
acres adjoining the eastern boundary of the Refuge and currently 
available for purchase from willing sellers. The Kilauea River runs 
through the land, which also includes an extensive lo'i (irrigated 
terrace for traditional cultivation of taro, the staple crop of Native 
Hawaiians) which could be restored to support endangered Hawaiian water 
birds, including the Hawaiian duck (Koloa), Hawaiian coot (``Alae 
``ke'oke'o), Hawaiian stilt (Ae'o) and Hawaiian moorhen (``Alae ``ula). 
There is also a high quality estuarine ecosystem at the lower reaches 
of the river, which includes habitat for endangered birds as well as 
native stream life, such as the hihiwai (an endemic snail), o'opu 
(native goby), the native sleeper fish, flagtail, mullet, prawn, 
shrimp, invertebrates and juveniles of several important recreational 
and commercial marine fish species. The proposed addition also provides 
an excellent habitat for the nene, Hawaii's state bird, which was only 
recently saved from extinction. The beach is also sometimes used by 
endangered Hawaiian monk seals, and endangered sea turtles nest in the 
area.
    The upper end of the proposed expansion area contains one of the 
largest waterfalls (Kilauea Falls) in the state of Hawaii.
    One of the owners has indicated an interest in donating a portion 
of valuable beachfront property (5.25 acres) to the Fish & Wildlife 
Service. And the owners of the two largest parcels have expressed 
interest in swapping their lands for income-producing real estate that 
may be in the registry of federal surplus lands.
    The three parcels of land are available for sale, and the owners 
have expressed a desire to see the land protected from development. But 
given rampant urbanization on Kauai (and elsewhere in Hawaii) and the 
high demand for waterfront property, we could very well lose this 
remarkable opportunity to add high quality wildlife habitat to our 
national refuge system.
    The Kilauea community strongly supports protecting the land from 
development. In fact, the Kilauea Point National Wildlife Refuge is a 
model for management of other federal refuges nationwide. The 
operations of the Refuge are supported by community volunteers, who 
give daily tours of the Refuge and help in the preservation and 
propagation of native plant species. The principal volunteer group, 
Kilauea Point Natural History Association, even has a small store in 
the Visitor Center, the proceeds of which support environmental 
education programs throughout Kauai.
    I append to my testimony, and would like to include in the record 
of this hearing, letters of support for H.R. 2619 from Kauai's Mayor 
Bryan Baptiste, State Senator Gary L. Hooser, State Representatives 
Hermina M. Morita and Ezra Kanoho, as well as from the Kilauea 
Neighborhood Association, the Kauai Public Land Trust, and the Kilauea 
Point Natural History Association. I also attach a copy of a resolution 
in support of H.R. 2619, which has been co-sponsored by each of the 
members of the Kauai County Council. The resolution will be passed 
unanimously by the Council today, September 25th.
    I respectfully ask the Members of this Subcommittee to support H.R. 
2619 and invite you to come to the Island of Kauai to visit the Refuge. 
I know that if you did so, you would be as convinced as I am of the 
importance of protecting these lands.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Case.
    I want to thank the members for their patience, 
persistence, their ability to represent their constituencies, 
either to expand the refuge or to try to help those who are 
seeking to get Federal flood insurance. We look forward to 
working with you on these issues in the coming weeks.
    I don't have any questions for each of the members. Mr. 
Pallone?
    Mr. Pallone. I was going to ask Congressman Case a couple 
of questions, although I think maybe you have answered all of 
them. But let me just go over them quickly.
    About the estimated cost to expand the refuge as proposed, 
you said the tax-assessed value was over $5 million, but I 
guess some of it would simply be exchanged for other land. What 
would your cost estimate be? In other words, how much money 
would we have to provide?
    Mr. Case. First of all, if the assumption is, as I think 
it's fair to assume, that we can, in fact, achieve some kind of 
an exchange, the out-of-pocket value would be zero because five 
acres would be donated and the remaining acres, the owners are 
perfectly willing to do it by exchange.
    Mr. Pallone. So actually all of the property could 
theoretically be done by exchange then?
    Mr. Case. Yes.
    Mr. Pallone. Then you talked about willing sellers, because 
that's always important in terms of any expansion of the 
refuges. I think you basically confirmed that all the private 
owners are willing sellers; you said that?
    Mr. Case. That's right. The private owners have properties 
that are valuable properties. The private owners have a sense 
of commitment to the preservation of those properties, but not 
all of the private owners have the ability to simply donate it 
to the Federal Government, so they would expect some form of 
compensation. But they are willing, in the sense that they are 
willing to proceed. They want the Federal Government to acquire 
these properties.
    Mr. Pallone. Then the last question, I know you said the 
mayors and the State legislators on the island are supportive. 
What about the State itself? Are they fully supportive of the 
legislation?
    Mr. Case. We have not actually confirmed the official State 
support. We will proceed to do that immediately after this 
hearing.
    But I would tell you that I would be extremely surprised if 
the Governor and the Director of Land and Natural Resources are 
not fully supportive of the expansion of this jewel, as they 
have been in other areas of Hawaii.
    Mr. Pallone. Has the Bush administration told you which 
parcels they want to acquire and which ones they might not, and 
have they given you any indication of why they might not want 
to acquire certain ones?
    Mr. Case. The testimony, I believe, will be that they are 
not sure they need all of this 219 acres that is available. 
They have some concerns about the resources to acquire and 
operate. But they have said they are very interested in some of 
it.
    I think they will confirm for you that what they are 
interested in is really the coastline and immediate estuary of 
the Kilauea River, which as I testified earlier they believe, 
and I agree, has the most value, relative value, for wildlife 
habitat. That's just simply where the birds are, so that's what 
they want to protect.
    This is also crucial, because I think we all know that when 
we're talking about endangered species in a hostile 
environment, you need critical mass with your habitat in order 
to provide that protection. If you have too little, you're 
going to be lost. You can't just have 30 acres and expect the 
species to survive. You need critical mass. This provides that 
critical mass.
    Mr. Pallone. Because the rest of that is basically upstream 
from there, in other words?
    Mr. Case. The rest of it is upstream. I don't want to give 
you the impression that the rest of it is not valuable for 
wildlife habitat protection. There are endemic, indigenous 
snails, indigenous shrimp, in that river. And just in terms of 
protecting the overall aura of this treasure, which is not just 
a matter of endangered species and endangered habitat, but 
endangered scenery.
    This is an incredible place for people who have been there. 
It is incredibly scenic. It's the way Hawaii was and the way 
people want to enjoy it.
    The waterfall that is at the top of that river is really an 
amazing waterfall. It's straight out of the movies, if you've 
ever seen some of the great movies we have shot on Kauai, 
like--you know, if I said it, you would recognize them. It's 
that kind of waterfall. So that's a valuable addition.
    Again, the community is entirely supportive and is willing 
to find the wherewithal to make sure that this addition is 
absorbed in a way that is manageable.
    Mr. Pallone. I appreciate your explanation. Thanks a lot.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    So was that Elvis Presley in ``Blue Hawaii''? Was that shot 
in that section of----
    Mr. Case. ``Blue Hawaii'' was shot down the street from 
here.
    [Laughter.]
    Mr. Case. If you've seen ``South Pacific,'' it may give you 
some sense of how this looks.
    Mr. Gilchrest. Elvis Presley immediately came to mind when 
you talked about the beauty of Hawaii.
    Mr. Case. I would be happy to sit here and continue to 
advertise my tourism industry, but you've got other stuff to 
do.
    Mr. Gilchrest. Mr. Bachus?
    Mr. Bachus. I would ask unanimous consent, or whatever I 
need to ask, that some supporting letters be put into the 
record.
    Mr. Gilchrest. Without objection.
    [NOTE: Letters of support for H.R. 2619 attached to Mr. 
Case's statement have been retained in the Committee's official 
files.]
    Mr. Gilchrest. Frank and I take your testimony seriously, 
so we want to canoe around the areas in question before we act 
on this legislation.
    Mr. Bachus. Absolutely. I actually have one letter I want 
to direct your attention to. Mr. Pallone asked about the State. 
The Parks Administrator for many of our parks wrote the State's 
endorsement. In the second paragraph he notes that he is a 
``Michigan Yankee'' who has moved to Alabama, and when he 
walked and canoed the river, he closes by saying, ``If any 
place in the country deserves and needs preservation and 
protection, it is the land proposed for the refuge expansion.''
    Now, I'm sure he has not been to Hawaii. I have several 
times. But it looks like you're in Hawaii.
    Mr. Gilchrest. Thank you very much, gentlemen. We 
appreciate your testimony and we will act expeditiously on your 
requests.
    I ask unanimous consent that Congresswoman Ginny Brown-
Waite's testimony be included in the record, along with all of 
the attachments that are in this document.
    [The prepared statement of Ms. Brown-Waite follows:]

Statement submitted for the record by The Honorable Ginny Brown-Waite, 
  a Representative in Congress from the State of Florida, on H.R. 3056

    Chairman Gilchrest, Members of the Subcommittee:
    I thank you for taking the time to discuss my bill, H.R. 3056. 
Passage of this legislation is vital to my constituents in Cedar Key, 
Florida.
    In 1992, Congress made changes to the Coastal Barrier Resources 
System that have effectively protected environmentally sensitive 
communities. These changes have also deterred residents from building 
or buying lands that are prone to natural disasters, such as flooding 
and erosion. However, these maps were created using the technology 
available at the time: paper maps with longitude and latitude markings 
and hand-drawn boundaries and land masses. Today, we have digital 
technology available to more accurately depict where the Coastal 
Barrier Resources Act (CBRA) boundaries lay. Unfortunately, it has been 
discovered that the original intent of Congress is not being followed; 
this new technology shows that many areas should have been excluded and 
are not.
    Two such cases exist in my district in Cedar Key. Mr. & Mrs. Oliver 
and Ms. Smith bought their homes with the belief that they lived in an 
excluded area of the CBRA system. As you know, if you do not live in an 
excluded area you do not qualify for federal assistance, the most 
important being federal flood insurance. The Olivers and Ms. Smith have 
now had to purchase insurance from private agents, which can cost over 
six times more than a federal policy. The Olivers were also in the 
process of selling their home and have found that since this new 
determination, their home has depreciated by 50-percent.
    On September 10th I introduced H.R. 3056. This bill clarifies the 
boundaries of Unit P25 and the Otherwise Protected Area P25P of the 
John H. Chafee Coastal Barrier Resources System, which includes the 
area in which my constituents live. This bill uses digital technology 
to redraw the boundaries to better reflect the intent of Congress in 
1992. The total net gain to P25 is approximately 115 acres, with the 
net loss to P25P being approximately 98 acres. By looking at a 1''=500 
feet scale plot of the excluded area and then estimating how many 
properties are bisected by the CBRA boundaries on the existing map, 
compared to the number of properties bisected by the CBRA line on the 
revised map, the Service estimates that 110 properties would be 
affected by this legislation.
    I support the efforts of my predecessors and the passage of the 
Coastal Barrier Resources Act. However, digital technology shows us 
that their intent is not being followed. I implore you to favorably 
pass my bill, H.R. 3056.
                                 ______
                                 
    Mr. Gilchrest. Panel II this morning will be Mr. Clint 
Riley, Special Assistant to the Director of the U.S. Fish and 
Wildlife Service; the Honorable Greg B. Westmoreland, Matagorda 
County Judge, Bay City, TX; Ms. Becky King, Village Manager, 
Bald Head Island, Village Council and Community, Bald Head 
Island, NC; and Mr. Chris Oberholster, Director of Conservation 
Programs, Alabama Chapter of the Nature Conservancy.
    Welcome. Thank you all for coming this morning. We look 
forward to hearing your testimony. Mr. Riley, you may begin, 
sir.

 STATEMENT OF CLINT RILEY, SPECIAL ASSISTANT TO THE DIRECTOR, 
                 U.S. FISH AND WILDLIFE SERVICE

    Mr. Riley. Thank you, Mr. Chairman, and members of the 
Subcommittee. Thank you for the opportunity to provide the 
Administration's views on H.R. 154, H.R. 2501, H.R. 3056, 
making technical corrections to the Coastal Barrier Resources 
System, as well as H.R. 2619 and H.R. 2623, expanding the 
Kilauea Point National Wildlife Refuge and the Cahaba National 
Wildlife Refuge, respectively.
    I am Clint Riley, Special Assistant to the Director of the 
U.S. Fish and Wildlife Service. Mr. Chairman, before 
proceeding, I would like to request that my written testimony 
be made part of the record.
    Mr. Gilchrest. Without objection.
    Mr. Riley. Thank you. I will try to move quickly to touch 
on all five of these bills during the time available to me.
    Beginning with the bill relating to the Coastal Barrier 
Resources Act, the administration does strongly support the 
goals of CBRA legislation and we do believe that that Act has 
had tremendous positive impacts on the protection of our 
coastal resources over the last 20 years.
    However, the three bills before you today are examples of 
challenges we face and could be called ``growing pains,'' as we 
work through the implementation of CBRA. I'm going to begin, if 
I may, with House Bill 3056, as it is the bill that was not 
presented by the sponsoring Congressperson this morning, so I 
will touch on it briefly.
    The bill, introduced by Congresswoman Brown-Waite, 
addresses the Cedar Keys, Florida, Unit P25, where we recently 
discovered a situation that the Fish and Wildlife Service had 
in the past incorrectly informed owners of three private lots 
that their properties were not part of P25 and, therefore, were 
eligible for Federal flood insurance. These incorrect property 
determinations were made in good faith, using the existing 
maps, with the frailties they had and the technology available 
at that time.
    H.R. 3056 would adopt a new digital map that we believe 
accurately depicts the appropriate portion of P25 by following 
the geographical features it was meant to follow. By doing so, 
the new map does remove approximately 32 acres of developable 
land from P25 and adds approximately 50 acres of wetland and 
open water to the unit. The digital map would appropriately, we 
believe, exclude the three lots from P25 and reflects what we 
believe was the original intent of Congress.
    The other two bills related to CBRA were briefly discussed 
previously. To touch on them again, H.R. 154, introduced by 
Congressman Paul, addresses T07, a CBRA unit in Matagorda 
Peninsula, TX. This legislation would adopt a new digital map 
that we believe would appropriately exclude approximately 19 
acres of privately owned land in the Matagorda Dunes Homesites 
subdivision, based on information that has been presented to us 
that leads us to believe there are credible records showing 
that a full complement of infrastructure was available in the 
subdivision before Congress adopted T07 in 1982.
    H.R. 2501, introduced by Congressman McIntyre, addresses 
NC-07P, which is an otherwise protected area in Cape Fear, NC. 
The legislation would adopt two new digital maps that provide 
an accurate and comprehensive revision to NC-07P. As you heard, 
these maps were prepared collaboratively, and you have heard 
testimony about them in the past year. Once again, we do 
believe the bill would correctly reflect the original intent of 
Congress to follow the appropriate conservation land 
boundaries.
    I will now turn to the two bills that deal with the 
National Wildlife Refuges legislation, H.R. 2619, introduced by 
Congressman Case, and H.R. 2623, introduced by Congressman 
Bachus.
    At this time I will not pretend to add to the discussions 
that those two gentlemen eloquently provided concerning the 
biodiversity of those areas and the value, but I do need to say 
that the administration cannot support either of these bills. 
Both the administration and the Fish and Wildlife Service are 
committed to taking better care of the resources currently 
under our jurisdiction, while ensuring that new land 
acquisitions truly meet the strategic needs of the National 
Wildlife Refuge System. We believe there must be a balance 
between acquiring new lands and meeting the operational, 
maintenance and restoration requirements for the resources 
already under public ownership.
    Towards this end, the Service is currently developing a 
plan to guide future growth and land acquisition for the Refuge 
System, as I believe you are familiar with, and I believe 
you're also familiar with the Comprehensive Conservation 
Planning process, the CCP process, which provides an 
opportunity and a forum for meaningful public participation and 
improved coordination with the States and local communities 
concerning the plans for the refuge, including potential 
acquisition.
    In the future, we will be developing draft CCPs for both 
Kilauea Point and Cahaba River Refuges and the public would 
have an opportunity to comment on these draft documents.
    The Service has evaluated these proposed expansions, 
however, and after careful review, we have concluded that the 
funding needs associated with the operational requirements to 
expand these refuges would compromise our ability to properly 
manage and address the needs of the refuges and potentially 
others within the Refuge System. For this reason, the 
administration cannot support H.R. 2619 or H.R. 2623.
    Mr. Chairman, this concludes my prepared statement. Thank 
you again for the opportunity to testify, and I would be 
pleased to respond to any questions that you or Congressman 
Pallone may have.
    Thank you.
    [The prepared statement of Mr. Riley follows:]

     Statement of Clint Riley, Special Assistant to the Director, 
       Fish and Wildlife Service, U.S. Department of the Interior

    Mr. Chairman and Members of the Subcommittee, I thank you for the 
opportunity to provide the Administration's views on H.R. 154, H.R. 
2501, and H.R. 3056, which make technical corrections to the John H. 
Chafee Coastal Barrier Resources System, as well as H.R. 2619 and H.R. 
2623, which would expand Kilauea Point National Wildlife Refuge and 
Cahaba National Wildlife Refuge, respectively. I am Clint Riley, 
Special Assistant to the Director of the U.S. Fish and Wildlife Service 
(Service).
John H. Chafee Coastal Barrier Resources System Legislation
    Before discussing the Administration's support of the three Coastal 
Barrier Resources System bills being discussed this morning, I will 
briefly describe the Coastal Barrier Resources Act (CBRA) and the 
Service's role in its implementation.
    Coastal barriers perform many functions that strengthen our economy 
and promote a healthy environment. These unique land forms support 
productive and lucrative fisheries, provide essential habitat for 
migratory birds and other protected species, serve as recreational 
areas for the public, and help sustain the vitality of local economies. 
Their beautiful beaches, unique dune and wetland environments, and 
biological diversity attract millions of visitors every year.
    With all of the positive attributes coastal barriers provide to 
people and wildlife, it is no surprise that development pressures on 
coastal barriers continue to escalate. However, coastal barriers are 
composed of unstable elements, and are vulnerable to storm damage and 
chronic erosion. Located at the interface of land and sea, coastal 
barriers serve as the mainland's first line of defense against the 
strong winds, huge waves, and powerful storm surges that accompany 
hurricanes. Their exposure to wind, wave, and tidal energy keeps 
coastal barriers in a state of flux, losing sand in some places and 
gaining it in others.
    Recognizing the environmental and economic value of coastal 
barriers and the risks associated with their development, Congress 
adopted and President Reagan signed into law the Coastal Barrier 
Resources Act of 1982. Through implementation of the Act, Congress 
sought to minimize the potential loss of human life, reduce wasteful 
expenditures of Federal revenues, and protect fish and wildlife and 
their habitats. The Act identified and included in the John H. Chafee 
Coastal Barrier Resources System (System) approximately 590,000 acres 
of undeveloped coastal barrier habitat along the Atlantic and Gulf 
coasts. The undeveloped status of System lands was an important 
underpinning of the law. The Act sought to remove Federal subsidies for 
new construction in hazard-prone and environmentally sensitive areas 
that were not yet developed, but not to penalize existing communities 
where significant investments had already been made. CBRA in no way 
regulates how people can develop their land. Instead, it removes 
Federal subsidies for development by limiting Federal spending for 
flood insurance, roads, potable water and other types of infrastructure 
on coastal barriers within the System. Therefore, individuals who 
choose to build and invest in these hazard-prone areas will incur the 
full cost of that risk, rather than passing the cost on to the American 
taxpayer.
    In 1990, Congress passed the Coastal Barrier Improvement Act which 
significantly increased the size of the System to approximately 1.3 
million acres and included coastal barriers along the Great Lakes, 
Puerto Rico, and the Virgin Islands. The expansion of the System by the 
1990 Act is largely due to the designation of ``otherwise protected 
areas'' or OPAs. Federal flood insurance is the only Federal spending 
prohibition in OPAs. By withholding Federal flood insurance, OPA 
designations give additional protection to coastal barriers already 
held for conservation purposes, such as park land and wildlife refuges, 
and discourage development of privately owned inholdings.
    When OPAs were first included in the System more than a decade ago, 
they were mapped with limited resources and rudimentary mapping tools. 
As a result, many OPAs could not be, and were not, mapped with the 
highest degree of accuracy and we continue to uncover cases where OPA 
boundaries do not coincide with the actual conservation land boundaries 
they were meant to follow. OPAs sometimes include adjacent private 
lands that are not inholdings, and the owners of these lands cannot 
obtain Federal flood insurance for their homes. We believe that 
Congress did not intend to include such adjacent private lands in the 
OPA. When these discrepancies come to our attention, as is the case 
with Cape Fear, we work closely with interested land owners, local and 
state officials, and protected area managers to correctly map the 
boundaries with the high quality mapping tools now available. Although 
the process is time consuming and requires a great deal of research and 
collaboration to ensure that OPA boundaries are correctly depicted on a 
digital map, we believe the result is well worth the investment. The 
replacement of crude paper maps with precise digital maps will result 
in a modernized tool that our customers and partners alike can rely 
upon for making important investment and planning decisions.
    CBRA is a map-driven law that is poised for a modernization process 
that expands electronic government, increases customer service, and 
builds upon existing tools used by our partners to conserve the 
nation's coasts. The Coastal Barrier Resources Reauthorization Act of 
2000 directed us to conduct a Digital Mapping Pilot Study that would 
produce draft digital maps of 75 areas and estimate the cost and 
feasibility of completing digital maps for the entire System. We are 
pleased to report that we are making progress on completing the pilot 
study and look forward to presenting it to you as soon as it is 
completed.
    The Administration strongly supports the intent of CBRA and its 
free-market approach to coastal protection. Despite the challenges 
presented by the fact that the controlling CBRA maps were drawn using 
the imprecise mapping tools available at the time, the Administration 
believes that the intent of CBRA has largely been achieved. The Coastal 
Barrier Resources Reauthorization Act of 2000 also directed the Service 
to conduct an economic assessment of the System. This study was 
released in 2002, the year of CBRA's 20th anniversary. The study 
estimated that CBRA will save American taxpayers approximately $1.3 
billion from 1983 to 2010.
    As authorized by Congress, the Secretary of the Interior is 
responsible for: (1) maintaining the official maps of the System; (2) 
conducting a review of the maps every five years to reflect natural 
changes; (3) consulting with Federal agencies that propose spending 
funds within the System; (4) working with the Federal Emergency 
Management Agency to ensure that Federal Flood Insurance Rate Maps 
accurately depict the System boundaries; (5) determining the location 
of private properties in relation to System boundaries; and, (6) making 
recommendations to Congress regarding the addition of areas to the 
System and in determining whether, at the time of its inclusion in the 
System, a coastal barrier was undeveloped and was appropriately 
included in the System. The Secretary administers the Act through the 
Service.

H.R. 154, To exclude certain properties from the John H. Chafee Coastal 
        Barrier Resources System
    H.R. 154, introduced by Representative Paul, addresses the 
Matagorda Peninsula, Texas Unit T07. T07, which includes most of the 
Matagorda Peninsula, was designated as a full System unit with the 
passage of the Coastal Barrier Resources Act in 1982. In addition, the 
Coastal Barrier Improvement Act of 1990 designated T07P, an adjacent 
OPA that includes mostly wetlands and open water on the sound side of 
the peninsula. H.R. 154 would adopt a new digital map that excludes 
from T07 approximately 19 acres of privately owned land in the 
Matagorda Dunes Homesites Subdivision.
    When reviewing requests to modify an existing System unit, the 
Service examines the development status of the unit when it was 
included in the System by Congress. The Coastal Barrier Resources 
Reauthorization Act of 2000 codified the criteria for recommending 
appropriate ``undeveloped'' coastal barriers for inclusion in the 
System, and for reviewing a unit's development status at the time of 
inclusion to determine whether an area was undeveloped and 
appropriately included in the System. The two criteria are density of 
development and level of infrastructure present at the time of 
inclusion. The density criterion is such that the density of 
development is less than one structure per five acres of land above 
mean high tide. The infrastructure criterion is such that there is 
existing infrastructure consisting of: (1) a road, with a reinforced 
road bed, to each lot or building site in the area; (2) a wastewater 
disposal system sufficient to serve each lot or building site in the 
area; (3) electric service for each lot or building site in the area; 
and, (4) a fresh water supply for each lot or building site in the 
area.
    The Service was presented with records showing that a full 
complement of infrastructure--roads, wastewater disposal, electricity, 
and potable water supply--was available in the Matagorda Dunes 
Homesites Subdivision before Congress adopted T07 in 1982. Based on the 
information provided and research of the Administrative Record, the 
Service believes that the subdivision should not have been included in 
the original T07 Unit because it exceeded the infrastructure criterion 
used to designate ``undeveloped coastal barriers'' as part of the 
System.
    When the Service finds a technical mapping error in one part of a 
System map, we review all adjacent areas to ensure the entire map is 
accurate. This comprehensive approach to map revisions treats other 
landowners who may be similarly affected equitably, and it also ensures 
that Congress and the Administration don't have to revisit the same 
areas in the future.
    However, we were not able to comprehensively revise the maps in 
this situation. Due to a disagreement between the State of Texas and 
Matagorda County over land ownership, the Service was unable to revise 
the boundaries of the nearby T07P OPA, which is depicted on the same 
maps as those for T07. The State contends that most of the land 
included in T07P is owned and held for conservation by the State. The 
County contends that the land is privately owned and not held for 
conservation. The dispute over land ownership will likely be resolved 
through future litigation.
    The Service supports H.R. 154 that would adopt one new digital map 
of T07 to exclude the Matagorda Dunes Homesites subdivision and 
accurately depict the T07 boundaries on the southern portion of the map 
to follow the shoreline. The new map does not comprehensively revise 
the existing T07 and T07P boundaries at this time because it is not 
possible to obtain concurrence from the State and the County on 
property boundaries. Although the Service supports a less than 
comprehensive boundary change in this case, our support is due to the 
unique circumstances described above. Future efforts to revise the 
System maps will adhere, to the fullest extent practicable, to our 
traditional comprehensive approach to map revisions that seeks 
concurrence from all interested parties.

H.R. 2501, To clarify the boundaries of Otherwise Protected Area NC-
        07P, Cape Fear, North Carolina
    H.R. 2501, introduced by Representative McIntyre, addresses the 
Cape Fear, North Carolina, OPA NC-07P, which was designated with the 
passage of the Coastal Barrier Improvement Act of 1990. H.R. 2501 would 
adopt two new digital maps of NC-07P that exclude from the OPA 
approximately 49 acres of privately owned land outside of the 
conservation land boundaries. H.R. 2501 would also significantly expand 
the OPA by adding approximately 5,961 acres of conservation land, 
water, and wetlands that were not included in the OPA in 1990.
    The Service supports H.R. 2501. Last year the Service testified in 
support of a similar bill that would make technical corrections to NC-
07P. In the case of private lands adjacent to a conservation area that 
were included in an OPA, we believe the controlling question is whether 
Congress intended to include these private lands within the OPA. In 
this case, all evidence we can find, both from the map itself, and from 
the legislative history of the 1990 law, suggests that Congress 
intended only to include the public lands, not these adjacent private 
lands, in the OPA. The 49 acres of private property in question are 
outside the boundary of the conservation area, are not inholdings, and 
are not held for conservation purposes. The new maps provide an 
accurate and comprehensive digital revision to NC-07P and were prepared 
through a collaborative process involving the local landowners and 
officials from the Village of Bald Head Island, Bald Head Island Land 
Conservancy, North Carolina Department of Natural Resources, and Sunny 
Point Military Installation.

H.R. 3056, To clarify the boundaries of the John H. Chafee Coastal 
        Barrier Resources System Cedar Keys Unit P25 and Otherwise 
        Protected Area
    H.R. 3056, introduced by Representative Ginny Brown-Waite, 
addresses the Cedar Keys, Florida, Unit P25. P25 was designated as a 
full System unit with the passage of the Coastal Barrier Resources Act 
in 1982. In addition, the Coastal Barrier Improvement Act of 1990 
designated P25P as an OPA. H.R. 3056 would adopt a new digital map that 
revises the excluded area of Cedar Key to remove approximately 32 acres 
of developable land from P25 and add approximately 50 acres of wetland 
and open water to P25. In addition, the new map revises the P25P OPA 
boundaries to coincide with the Cedar Keys National Wildlife Refuge 
boundaries which the OPA was intended to follow.
    As mentioned above, one of the Service's roles in administering 
CBRA is to determine whether certain private properties are affected by 
CBRA. The Service recently discovered a situation on Cedar Key where 
our field personnel, in the past, incorrectly informed the owners of 
three private lots on Cedar Key that their property was not part of the 
System, and therefore was eligible for Federal flood insurance. These 
property determinations were made in good faith with the best tools 
available at the time. The tools available were imprecise topographic 
quadrangle maps that are the current law, and aerial photos used to 
interpret these maps.
    When higher precision mapping tools were recently used to make a 
property determination in another part of Cedar Key, we discovered the 
three earlier incorrect determinations. The affected landowners will 
lose their Federal flood insurance because their properties are 
actually within the System. Based on our review of the Administrative 
Record, we believe that the three lots were inadvertently included in 
P25 due to inaccuracies in the original topographic map. The new map 
proposed by H.R. 3056 provides a digital revision to the P25 excluded 
area that reflects what we believe was the original intent of the unit. 
The revised map appropriately excludes the three lots from the System, 
as well as other private properties on Cedar Key that never received 
determinations from the Service.
    When the Service finds a technical mapping error in one part of a 
System map, we review all adjacent areas to ensure the entire map is 
accurate. Upon reviewing the adjacent P25P OPA, which is depicted on 
the same maps as those for P25, we uncovered significant State and 
Federal conservation lands that are not included in the existing OPA 
boundaries. The process to revise the existing OPA boundaries and 
depict the new boundaries on a map is lengthy as it requires the 
Service to work with landowners and local, State, and Federal officials 
to accurately define the conservation area boundaries.
    The Service supports H.R. 3056 that would adopt a new digital map 
of P25/P25P that accurately delineates the P25 Cedar Key excluded area 
and the adjacent P25P OPA boundaries. This digital map addresses only 
part of the existing area that encompasses P25 and P25P. All the 
boundaries on the digital map are accurate and we have letters of 
concurrence from Levy County and the State of Florida that confirm 
this. The areas of P25 and P25P not addressed by this digital map 
continue to be depicted in the current map. The Service supports a 
future comprehensive digital revision to the entire P25 and P25P area 
that follows adequate research to examine the extent of the adjacent 
conservation lands that were not included in P25P when the OPA was 
designated in 1990. We will prepare these maps expeditiously, obtain 
concurrence from appropriate entities, and present them to Congress for 
consideration when they are completed.
    This situation is a notable departure from our traditional 
comprehensive approach to map revisions. The Service supports a 
targeted map revision in this case because the time required to 
accurately re-map the significant conservation lands of P25P would 
preclude a timely remedy for the private property owners who received 
an inaccurate determination from the Service and subsequently lost 
their Federal flood insurance eligibility. However, in future cases 
where we uncover a technical mapping error, we will apply, to the 
fullest extent practicable, our traditional approach of comprehensively 
re-mapping the entire area.
John H. Chafee Coastal Barrier Resources System Conclusion
    Mr. Chairman, the situations surrounding the three CBRA bills 
discussed above are all indicative of the ``growing pains'' the John H. 
Chafee Coastal Barrier Resources System is experiencing. We have worked 
with Congress to develop approaches for making recommendations 
regarding CBRA maps, and to the maximum extent, we strive to maintain 
consistency in our approaches. However, we have also learned through 
experience that we must be flexible enough to deal with unanticipated 
situations as they arise. Two of the three cases I discussed do not 
adhere to our preferred approach of comprehensive re-mapping. In those 
two cases, due to unique circumstances, we believe that providing 
timely relief to the affected private property owners is essential. In 
the short-term, we will continue to address technical mapping errors as 
we uncover them. In the long-term, we are hopeful that our progression 
towards accurate and up-to-date digital maps will help alleviate many 
of the challenges we are currently facing due to the imprecise mapping 
of the past.
    The Administration supports the three Coastal Barrier Resources 
System bills I discussed today and we will continue to work with 
Congress to achieve CBRA's objectives and ensure the System is accurate 
in its boundary descriptions. Our work to correct technical errors is 
one part of our broader goal to modernize all CBRA maps and provide our 
partners and customers with better information. We believe this will 
help achieve all of three of CBRA's intentions: saving taxpayers' 
money, keeping people out of the deadly path of storm surge, and 
protecting valuable habitat for fish and wildlife.

National Wildlife Refuge System Legislation
H.R. 2623, To provide for the expansion of Cahaba River National 
        Wildlife Refuge
    I would like to begin by giving you a brief summary of Service 
involvement in the protection of lands in the Cahaba River area. For 
several years, The Nature Conservancy (TNC) has been working to develop 
partnerships with corporations, local communities, and other 
conservation groups to protect the Cahaba River and its unique natural 
resources. Though the Cahaba River has experienced a dramatic decline 
of freshwater fish and wildlife during the past 50 years, it is still 
one of the nation's most biologically diverse rivers. It currently 
supports 64 rare and imperiled plant and animal species, and 15 
federally listed fish, snail, and mussel species--13 of which are found 
nowhere else in the world. There are a total of 131 species of fish in 
this River--more than any other river of its size in North America.
    To protect a critical core area along the Cahaba River, Congress 
passed the Cahaba River National Wildlife Refuge (NWR) Establishment 
Act, which became Public Law 106-331 following the President's 
signature on October 19, 2000. The Act directs the Secretary of the 
Interior to acquire up to 3,500 acres of lands and waters within a 
designated acquisition boundary. In partnership with TNC, the Service 
began acquiring land for the Cahaba River NWR in September 2002, and we 
have acquired a total of 2,977 acres.

H.R. 2619, To provide for the expansion of Kilauea Point National 
        Wildlife Refuge
    H.R. 2619 authorizes expansion of the Kilauea Point NWR. It is one 
of three National Wildlife Refuges managed as part of the Kaua`i NWR 
Complex. This Refuge was established in 1985 when the Coast Guard 
transferred 31 acres to the Service. Today the Refuge consists of 203 
acres of protected land on the island of Kaua`i, near the northernmost 
tip of the Hawaiian Islands.
    The Kilauea Point NWR is managed to provide protected marine and 
terrestrial habitats for a host of increasingly rare Hawaiian wildlife 
species. The steep cliffs on this Refuge support nesting seabirds, such 
as red-footed booby, Laysan albatross, great frigate bird, red-tailed 
tropic bird, white-tailed tropic bird, and wedge-tailed shearwater. 
Hawaii's state bird, the endangered Hawaiian goose (or nene), and the 
Pacific Golden plover use the refuge's grasslands. Endangered Hawaiian 
monk seals haul out on the rocks below the cliffs, and endangered 
humpback whales, threatened green sea turtles, and protected spinner 
dolphins migrate through the adjacent National Marine Sanctuary. The 
refuge's endangered plant restoration program is giving a number of 
rare species a chance to survive on Kilauea Point's protected and 
managed environments. Kilauea Point is one of the few Hawaiian refuges 
open to the public and is one of the most popular spots for visitors 
and residents of Hawaii alike, with an average of 300,000 visitors a 
year.

Status of the National Wildlife Refuge System
    The Administration is committed to taking better care of what we 
have, while ensuring that new acquisitions truly meet strategic needs 
of the NWRS. This includes purchasing in-holdings within currently 
approved refuge boundaries. There must be a balance between acquiring 
new lands and meeting the operational, maintenance and restoration 
requirements for the resources already in public ownership. Towards 
this end, the Service is currently developing a plan to guide future 
growth and land acquisition for the NWRS.
    The National Wildlife Refuge System Improvement Act of 1997 (Pub. 
L. 105-57) requires the Service to develop a Comprehensive Conservation 
Plan (CCP) for each refuge in the National Wildlife Refuge System 
(NWRS). The CCP describes the desired future conditions of a refuge and 
provides long-range guidance and management direction to achieve refuge 
purposes. It is during this process that expansion of a refuge is 
considered and recommended if increasing the size will help fulfill the 
purpose for which the refuge was established. Development of a CCP 
provides a forum for meaningful public participation and improved 
coordination with the states and local communities. It also affords 
local citizens an opportunity to help shape future management of a 
refuge, recognizing the important role of refuges in nearby 
communities. In the future we will develop draft CCPs for both Cahaba 
River and Kilauea Point refuges, and the public will have the 
opportunity to comment on these drafts.
    We have evaluated the areas identified in H.R. 2623 and H.R. 2619 
as potential additions to Cahaba River and Kilauea Point National 
Wildlife Refuges and, after a careful review of our current priorities 
and funding constraints, have concluded that the funding needs 
associated with the operational requirements to expand these refuges 
would compromise our ability to properly manage and address the needs 
of these refuges, as well as existing refuges throughout the system. 
However, the Pacific Regional Office has begun evaluating whether a 
scaled-back expansion at Kilauea Point NWR limited to the coastal 
strand, estuary, and grassland north of the estuary (totaling 
approximately 40 acres) would be valuable additions to the refuge based 
on benefits to threatened and endangered species.
    We note that other opportunities and tools exist for protecting 
resources along the Cahaba River and coastal Kaua`i. Service programs 
such as Partners for Fish and Wildlife, the North American Wetlands 
Conservation Act, the Landowner Incentive Program, and Private 
Stewardship Grants can be used in cooperation with State, local and 
private partners to restore and protect these natural resources. The 
States of Alabama and Hawaii both receive funds through the Federal Aid 
in Wildlife Restoration, Federal Aid in Sport Fish Restoration, and 
state wildlife grants that can assist in protecting these areas and 
their resources. The State of Hawaii Department of Land and Natural 
Resources, the County, the City of Kilauea, and other local partners 
have all expressed interest in protecting the natural resources along 
the coastal area of Kaua`i. Thus, we believe the Service working in 
partnership with other interested agencies can achieve the resource 
protection goals suggested by H.R. 2623 and H.R. 2619.
    We appreciate that Representative Bachus and Representative Case 
and their constituents are interested in having the Fish and Wildlife 
Service expand our role in the areas around Cahaba River and Kilauea 
Point National Wildlife Refuges. However, for the reasons stated 
previously, the Administration cannot support this legislation.

Conclusion
    In conclusion, for the reasons outlined above the Administration 
supports the three Coastal Barrier Resources System bills being 
discussed this morning, but cannot support the two National Wildlife 
Refuge expansion bills.
    Mr. Chairman, this concludes my prepared statement. Thank you again 
for the opportunity to testify at today's hearing. I would be pleased 
to respond to any questions you or the Committee Members may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. Riley.
    Judge, the Honorable Greg B. Westmoreland, welcome, sir, to 
the great city of Washington, D.C., from the great State of 
Texas.

            STATEMENT OF HON. GREG B. WESTMORELAND, 
            MATAGORDA COUNTY JUDGE, BAY CITY, TEXAS

    Judge Westmoreland. Yes, sir. Thank you very much. It's an 
honor to be here.
    I would like to thank you, Mr. Chairman, and all the 
Honorable Members of the Subcommittee, for allowing a County 
Judge from a small rural county in Texas to come before you on 
a problem that is big to us but, undoubtedly, small in the 
national picture.
    There is a small subdivision at Matagorda Beach, known as 
Matagorda Dunes Homesites, that has 45 lots with 10 existing 
homes. We have the paperwork that proves this subdivision was 
platted with electrical and water service provided to all of 
the lots in 1976-77, which met the requirements to be excluded 
from the Coastal Barrier Resources Act in 1982. As you just 
heard, the U.S. Fish and Wildlife Service has confirmed that 
this subdivision should not have been included in the Act.
    In fact, all 10 homes that have been built there have been 
built with the belief that they were excluded from the CBRA 
zone. They were able to secure loans from financial 
institutions only because of the security of Federal flood 
insurance and State windstorm coverage programs.
    These individuals and financial institutions have been left 
in limbo since the Texas windstorm pool looked at a map and 
discovered about a year-and-a-half ago that this subdivision 
was indeed included in the CBRA zone. At this time the 
homeowners and lienholders were sent cancellation notices of 
insurance and told, ``Sorry, we can no longer cover your 
property.''
    This started the trail that eventually brought me to 
Washington today. A mistake was made 21 years ago that placed 
this little subdivision in CBRA. It does not matter who made 
the mistake, but now, since the mistake has come to light, 
please help us fix it. Your action to remove this subdivision 
from the CBRA zone is greatly appreciated and will restore 
value to these property owners.
    Thank you so much for your time and consideration. I will 
be happy to try to answer any questions you might have.
    [The prepared statement of Judge Westmoreland follows:]

   Statement of Greg B. Westmoreland, Judge, Matagorda County, Texas

    Dear Congressman Gilchrest and Honorable Members of the 
Subcommittee:
    First of all, let me thank you for taking the time to listen to a 
County Judge from a small rural county in Texas that has a problem that 
is Big to us, but undoubtedly Small on the National Level.
    There is a small Subdivision at Matagorda Beach, known as Matagorda 
Dunes Homesites, that has 45 lots with 10 existing homes. We have the 
paperwork that proves that this subdivision was platted with electrical 
and water service provided to all of the lots in 1976-77 which met the 
requirements to be excluded from the Coastal Barrier Resources Act in 
1982. The U.S. Fish and Wildlife Service has confirmed that this 
subdivision should not have been included in the Act.
    In fact, all 10 homes that have been built have been with the 
belief that they were EXCLUDED from the CBRA Zone. They were able to 
secure loans from Financial Institutions only because of the security 
of Federal Flood Insurance and State Windstorm Coverage Programs.
    These individuals and Financial Institutions have been left in 
limbo since the Texas Windstorm Pool looked at a map and discovered 
about a year-and-a-half ago that this subdivision was indeed included 
in the CBRA Zone. At this time the homeowners and lien holders were 
sent cancellation notices of insurance and told sorry we can no longer 
cover your property.
    This started the trail that eventually brought me to Washington 
today. A mistake was made 21 years ago that placed this little 
subdivision in CBRA. It does not matter who made the mistake, but now, 
since the mistake has come to light, please help us fix it. Your action 
to remove this subdivision from the CBRA Zone is greatly appreciated 
and will restore value to the property owners.
    Thank you so much for your time and consideration.
    I will be happy to try to answer any questions you may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Judge.
    Judge Westmoreland. Thank you, sir.
    Mr. Gilchrest. Miss Becky King, welcome to Washington.

  STATEMENT OF BECKY KING, VILLAGE MANAGER, BALD HEAD ISLAND 
VILLAGE COUNCIL AND COMMUNITY, BALD HEAD ISLAND, NORTH CAROLINA

    Ms. King. Thank you, Chairman Gilchrest, and Members of the 
Subcommittee. My name is Becky King and I'm the Village Manager 
for the Village of Bald Head Island. I am here today 
representing the Bald Head Island Village Council and the 
community.
    Thank you for inviting me to testify on Congressman 
McIntyre's bill, H.R. 2501, which is a bill to clarify the 
boundaries of the Coastal Barrier Resources System, Cape Fear 
Unit NC-07P, which directly affects Bald Head Island.
    The community strongly supports the proposed bill, as it 
would allow for a needed clarification of the CBRA areas, allow 
affected homeowners to purchase Federal flood insurance, and 
would bring 200 acres of environmentally sensitive property 
under Federal protection through CBRA.
    Let me begin my testimony by describing to the Committee 
the community of Bald Head Island. Bald Head Island is a 
barrier island at the mouth of the Cape Fear River in Brunswick 
County, NC. It is accessible by passenger ferry and the primary 
mode of transportation on the island is by electric vehicles or 
golf carts.
    The community of Bald Head is extremely environmentally 
sensitive. It has been carefully planned and developed to 
protect the maritime forest, estuarine and ocean environments 
that exist there on Bald Head. The preserved ``natural state'' 
of the island is, in fact, the primary draw of the island to 
those who live and visit there. Many areas on Bald Head are 
protected by virtue of the Coastal Barrier Resources Act, 
others through gifts to the State of North Carolina, the 
purchase of property by the Smith Island Land Trust, which is a 
nonprofit organization, and thoughtful development.
    Residential development of the island began in the early 
1970s. However, the village did not become a governmental 
entity until 1985, and not until 1991 did the village 
government adopt a flood damage prevention ordinance in order 
to participate in the National Flood Insurance Program. The 
Flood Insurance Rate Map, or FIRM map as we know it, became a 
part of this ordinance, which is the tool the village utilizes 
to determine CBRA areas.
    Many lots on Bald Head Island were platted and recorded 
prior to Congressional enactment of the CBRA, the Coastal 
Barrier Resources Act. A total of eight homes have been 
constructed in the CBRA zone, or otherwise protected area, 
prior to the Coastal Barrier Resources Act becoming law. Since 
that time, other homes have been built in OPAs, many of which 
property owners were not notified of being in a protected area. 
Due to the scale of the FIRM maps, being one inch equals 2,000 
feet for our area, accurate delineation of the CBRA area is 
very difficult to determine generally, impossible to determine 
precisely.
    The Village of Bald Head believes that H.R. 2501 is much 
needed legislation. The CBRA zone, as it exists on the 1993 
FIRM maps, which is what we use for our area, is currently 
inaccurate according to the premise of the Coastal Barrier 
Resources Act of 1982.
    The area on Bald Head Island that was included in the CBRA 
zone as an OPA was supposed to have been the marshland below 
mean high water and certain areas of high ground, such as marsh 
islands, that had been specifically identified and previously 
deeded for public ownership.
    However, in the process of delineating the CBRA zone, areas 
on FIRM maps resulted in the CBRA line following mean high 
water in some areas, but moving up on high ground areas along 
Bald Head Creek. The delineation of these lines simply appears 
to be a mistake.
    The primary significance of areas included under the CBRA 
designation as OPA is that property owners are not eligible for 
Federal flood insurance. In the areas of misinterpretation, 
some houses have been built and insurance policies written in 
some of these areas. In the event of a loss, FEMA can interpret 
the area to be in the CBRA zone, deny the claim, and tell the 
property owner that the insurance company error in writing the 
policy, leaving the property owner completely unprotected.
    Therefore, revision of the map is imperative for Bald Head, 
as hurricanes are a constant threat in our area, and risk of 
loss is probable. To provide an example, if Hurricane Isabel 
had directly hit Bald Head Island, and a homeowner had a house 
in the CBRA zone that is inaccurately delineated, then that 
property owner would have absolutely no recourse. Because they 
are not eligible for Federal flood insurance, it would be a 
complete loss to them.
    The revised map would remove 26 homes and 15 lots from the 
Otherwise Protected Area designation. Of the 26 structures, 
eight of those were in place prior to November of 1990, when 
the original Otherwise Protected Area was drawn.
    In addition to removing existing structures and undeveloped 
lots from the CBRA zone, which is an Otherwise Protected Area 
again, the revised NC-07P would add 186.59 acres of maritime 
forest and 11 acres of environmentally sensitive property under 
Federal protection through CBRA.
    To conclude, the Village of Bald Head Island and the 
community strongly supports H.R. 2601, as it provides needed 
clarification for the CBRA boundaries and would allow affected 
homeowners to purchase Federal flood insurance under the 
National Flood Insurance Program. The bill would also serve as 
a positive environmental measure, affording approximately 200 
acres of maritime forest and environmentally sensitive property 
Federal protection through CBRA. The bill has the support of 
the governing body, the community, and the Bald Head Island 
Nature Conservancy.
    Amending the map to clarify the original intended 
boundaries would not be detrimental but enhance the public 
interest. It is my understanding the Congress established the 
Coastal Barrier Resources System to minimize the loss of human 
life, wasteful expenditure of Federal revenues, and damage to 
fish and wildlife and other natural resources. Passage of the 
proposed bill is not inconsistent with these goals, but would 
seek to promote them.
    The Village of Bald Head Island urges your support of the 
proposed legislation. Thank you for your time and consideration 
of my testimony.
    [The prepared statement of Ms. King follows:]

     Statement of Becky King, Manager, Village of Bald Head Island

    Chairman Gilchrest, members of the Subcommittee. My name is Becky 
King and I am the Village Manager for the Village of Bald Head Island 
and I am here today representing the Bald Head Island Village Council 
and Community. Thank you for inviting me to testify on Congressman Mike 
McIntyre's bill, H.R. 2501, a bill to clarify the boundaries of Coastal 
Barrier Resources System Cape Fear Unit NC-07P, which directly affects 
Bald Head Island.

Professional Background
    I was raised in a farming family in a rural area along the coast of 
North Carolina. I attended the University of North Carolina at Chapel 
Hill and earned a Bachelor of Science degree in Business Administration 
in 1994. I subsequently obtained a Master's of Business Administration 
in 1998 from the University of North Carolina at Wilmington.
    While obtaining my Master's Degree, I worked as a Planner both for 
County and Municipal Government in the coastal areas of Brunswick 
County. This experience allowed me to gain knowledge in various Coastal 
issues by serving as a Coastal Areas Management Act Local Permit 
Officer and assisting in administration of the Flood Prevention 
Ordinance. Since June 2000 I have served as Village Manager for the 
Village of Bald Head Island, which has further exposed me to addressing 
difficult coastal issues.
    Since 1994, I have worked in one capacity or another in local 
government, promoting the interest of the public. I have assisted in 
drafting many local ordinances that were geared toward protection of 
the environment, specifically marshes, estuaries, and other protected 
areas. Therefore, I am familiar with the principles upon which the 
Coastal Barrier Resources Act is founded.

Introduction
    Let me begin my testimony by describing to the Committee the 
Community of Bald Head Island. Bald Head Island is a barrier Island 
located at the mouth of the Cape Fear River in Brunswick County, North 
Carolina. It is accessible only by passenger ferry and the primary mode 
of transportation is by electric vehicles or golf carts. The community 
of Bald Head Island is extremely environmentally sensitive. It has been 
carefully planned and developed to promote the protection of the 
maritime forest, estuarine and ocean environments that exist on Bald 
Head Island. The preserved ``natural state'' of the Island is in fact 
the primary draw of the Island to those who live and visit there. Many 
areas on Bald Head Island are protected by virtue of the Coastal 
Barrier Resources Act, others through gifts to the State of North 
Carolina, purchase of property by the Smith Island Land Trust (a non-
profit organization), and thoughtful development.
    Residential development of the Island began in the early 1970's; 
however, the Village did not become a governmental entity until May 6, 
1985, by grant of Charter by the State of North Carolina. Not until 
1991 did the Village government adopt a Flood Damage Prevention 
Ordinance in order to participate in the National Flood Insurance 
Program. The ordinance was adopted on May 18, 1991, and the Flood 
Insurance Rate Map (FIRM) became a part of this ordinance.
    Many lots on Bald Head Island were platted and recorded prior to 
the Village Charter, adoption of the Flood Damage Prevention Ordinance 
as well as Congressional enactment of the Coastal Barrier Resources 
Act. A total of eight homes have been constructed in the COBRA Zone or 
``otherwise protected area'' (OPA) prior to the Coastal Barrier 
Resources Act becoming law. Since that time, other homes have been 
built in OPA's, many of which property owners were not notified of 
being in a protected area. Due to the scale of the FIRM maps (the tool 
utilized to delineate COBRA areas) being 1 inch equals 2,000 feet for 
our area, accurate delineation of the COBRA area is very difficult to 
determine generally, impossible to determine precisely.

Overview
    The Village of Bald Head Island believes that Congressman 
McIntyre's bill, H.R. 2501, to clarify the boundaries of Coastal 
Barrier Resources System Cape Fear Unit NC-07P, is much needed 
legislation. The COBRA Zone, as it exists on the 1993 Flood Insurance 
Rate Map (FIRM) for our area, is currently inaccurate according to the 
premise of the Coastal Barriers Resources Act of 1982. For example, 
some areas depicted as located in a COBRA Zone or ``otherwise protected 
areas'' (OPA's) on Bald Head Island are not even in flood hazard areas. 
Other areas that are inappropriately labeled as OPA's are privately 
held and in upland areas or areas completely out of the marsh where 
development has occurred.
    The area on Bald Head Island that was included in the COBRA Zone as 
an OPA was supposed to have been the marsh area below mean high water 
and certain areas of high ground (marsh islands) specifically 
identified and previously deeded for public ownership. However, in the 
process of delineating the COBRA Zone, areas on FIRM maps resulted in 
the COBRA line following Mean High Water (MHW) in some areas but moving 
up on high ground in areas along Bald Head Creek. The delineation of 
the lines in these areas simply appears to be a mistake.
    The primary significance of areas included under the COBRA 
designation as OPA is that property owners are not eligible for Federal 
Flood Insurance. In the areas of misinterpretation, some houses have 
been built and insurance policies written in some of these areas. In 
the event of a loss, FEMA can interpret the area to be in the COBRA 
Zone, deny the claim, and tell the property owner that the insurance 
company erred in writing the policy, leaving the property owner 
unprotected.
    Clarification of NC-07P would be a very positive measure for Bald 
Head Island. The revised map would remove 26 homes and 15 undeveloped 
lots from the OPA designation. Of the twenty-six structures in 
existence, eight of those were in place prior to November of 1990, when 
the original OPA was drawn. Revision of NC-07P is imperative as 
hurricanes are a constant threat along our coast, with the potential to 
leave many Bald Head Island property owners unprotected in the event of 
a catastrophic storm.
    In addition to removing existing structures and undeveloped lots 
from the COBRA Zone (otherwise protected area), the revised NC-07P 
would add 186.59 acres of maritime forest and 11.06 acres of 
environmentally sensitive property under federal protection through 
COBRA. Therefore, the bill would not only clarify the originally 
intended boundary for Bald Head Island, but would also enhance the 
environmental impact to the Island by adding further protection to 
environmentally sensitive areas.

Conclusion
    The Village of Bald Head Island and the community strongly supports 
H.R. 2501 as it provides needed clarification for COBRA boundaries and 
would allow affected homeowners to purchase flood insurance, under the 
National Flood Insurance Program. The bill would also serve as a 
positive environmental measure affording approximately 200 acres of 
maritime forest and environmentally sensitive property federal 
protection through COBRA. The bill has the support of the governing 
body, the community, and the Bald Head Island Nature Conservancy.
    Amending the map to clarify the original intended boundaries would 
not be detrimental but enhance the public interest. It is my 
understanding that Congress established the Coastal Barrier Resources 
System to minimize loss of human life, wasteful expenditure of Federal 
Revenues, and damage to fish and wildlife and other natural resources. 
Passage of the proposed bill is not inconsistent with these goals, but 
would seek to promote them.
    The Village of Bald Head Island urges your support of the proposed 
legislation. Thank you for your time in consideration of my testimony.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Miss King.
    Mr. Chris Oberholster. Welcome.

   STATEMENT OF CHRIS OBERHOLSTER, DIRECTOR OF CONSERVATION 
       PROGRAMS, ALABAMA CHAPTER, THE NATURE CONSERVANCY

    Mr. Oberholster. Thank you.
    Chairman Gilchrest, Ranking Member Pallone, and Members of 
the Subcommittee, I really appreciate the opportunity to 
present the Nature Conservancy's testimony in support of H.R. 
2623, legislation to expand the Cahaba River National Wildlife 
Refuge in Alabama.
    A recent analyses, as Mr. Bachus had pointed out, of the 
biological heritage of the U.S. revealed that Alabama is one of 
the richest States in the Nation with respect to its wildlife 
heritage, ranking right up there with the great States of 
Hawaii, Texas and California. Alabama also has a lot more 
species than any other State in the mainland U.S., second only 
to Hawaii, with its fragile island ecosystems.
    Within this landscape of biological wealth, the Cahaba 
River stands out as one of the crown jewels of our Nation's 
natural heritage. The existing refuge established in 2000 
protects an impressive array of biological resources, including 
the world's largest population of the spectacular and imperiled 
shoal spider lily, known locally as the Cahaba Lily.
    The proposed expansion offers an opportunity to expand the 
list of rare species, like migratory songbirds and other 
resources protected in the refuge, manyfold. Among other 
things, the proposed expansion would increase the list of rare 
plant species protected from five to sixty-six, and the rare 
species of animals from 25 to 40 species. It would protect the 
habitat for 12 federally endangered or threatened species in 
this one area, almost 10 percent of the total for the whole 
State of Alabama.
    The expansion would also protect the largest populations of 
at least 12 globally imperiled plants, potentially precluding 
their need to be listed in the future. So this is a proactive 
step. It would include virtually all of the unique Ketona 
dolomite glades habitat, which is found nowhere else on Earth, 
and has only recently been found to have eight new species of 
plants to science.
    It would provide direct protection to more than 20 miles of 
river frontage along the Cahaba and key tributaries. It would 
protect extensive hardwood forests harboring many species of 
migratory songbirds, including several of the more rapidly 
declining species like the Louisiana Waterthrush, Swainson's 
Warbler, Acadian Flycatcher and others.
    The proposed expansion would authorize eventual ownership 
of up to about 26,000 additional acres, the majority of which 
are owned by three major corporate landowners. All of these 
have indicated a willingness to be included in the expansion 
and would be willing to consider selling at fair market value. 
Acquisition of these additional acres might cost between $25-35 
million over time, and obviously the length of time would be 
contingent on several factors, including availability of 
appropriated funds.
    A very low percentage of Alabama, I might point out, is 
publicly owned, around 5 percent. Tremendous support exists 
from people who want additional public recreational, wildlife-
related opportunities, such as hunting, fishing, hiking and 
canoeing.
    More than one million people, a quarter of Alabama's 
population, live within a 1-hour drive of this refuge. In 
addition, the proximity to major interstates, an expanded 
refuge would be much more attractive as a destination to 
visitors, especially important to Bibb County, a very rural and 
impoverished county, and to Alabama in general, where heritage 
and ecotourism are being promoted actively.
    Local press coverage has been favorable, and we have not 
heard of anyone opposed to the expansion. Supporters for the 
expansion include the Alabama Department of Conservation, the 
Cahaba Trace Commission, and many other groups, including many 
statewide and local conservation groups, such as the Cahaba 
River Society.
    We are particularly grateful for the strong support of our 
Congressional delegation. U.S. Representative Spencer Bachus 
and Governor, then U.S. Representative, Bob Riley, cosponsored 
the original legislation to establish the refuge. Their 
leadership, along with support from both Senator Sessions and 
Senator Shelby, for subsequent appropriations has resulted in 
acquisition of virtually all land in the refuge boundaries 
within two Federal fiscal years after establishment.
    I should add that the local citizens from Bibb County are 
particularly strongly supportive of the refuge concept, and 
especially the expansion. I believe Mr. Bachus' testimony has 
included letters of support, especially one from the Bibb 
County Commission, expressing their strong support for the 
expansion.
    As direct evidence of their commitment, the Bibb County 
Commission has set aside in escrow $68,000 in support of O&M 
for the refuge, and the Nature Conservancy has pledged an 
additional $150,000 to support O&M startup activities in the 
refuge. We are also working at our own expense, as a private 
organization, to cover a lot of different aspects of O&M for 
the refuge currently. For example, developing a detailed map, 
GPS unit based map, of the refuge road network, and we are also 
working with refuge staff to develop a draft vegetation 
management plan, again at our expense.
    An exciting management partnership is emerging here. 
Clearly, more acres are likely to result in some increase in 
O&M costs for the refuge. However, the proposed increase will 
not necessarily lead to a significant increase in staffing at 
the refuge, which is one of the primary operating costs. The 
planned staffing level at the existing refuge is six FTEs, and 
when one factors in the strong existing and emerging 
partnerships here, the Service will be in a very strong 
position regarding tangible assistance toward meeting their O&M 
needs.
    While we are sensitive to Service concerns regarding the 
continued growth of the refuge system, particularly at a time 
of fiscal constraints, we feel strongly the Service should not 
halt expansion while it develops a strategic vision for the 
system. We encourage the Service to support limited growth 
system in areas that would contribute significantly to the 
protection of Federal trust resources and that enjoy strong 
public support.
    The Cahaba River is one of these places. It is quite simply 
a national treasure. Because of the significant biological 
resource and public trust values outlined here, and the 
partnerships that are developing regarding O&M, we strongly 
support this proposed expansion and request Committee support 
for H.R. 2623.
    Thanks for your attention. I would be happy to answer any 
questions.
    [The prepared statement of Mr. Oberholster follows:]

  Statement of Chris Oberholster, Director of Conservation Programs, 
                Alabama Chapter, The Nature Conservancy

    Mr. Chairman and members of the Subcommittee, I appreciate this 
opportunity to present The Nature Conservancy's testimony in support of 
H.R. 2623, legislation to expand the Cahaba River National Wildlife 
Refuge in Alabama.
    The Nature Conservancy is a leading international, nonprofit 
organization that preserves plants, animals and natural communities 
representing the diversity of life on Earth by protecting the lands and 
waters they need to survive. To date, the Conservancy and its more than 
one million members have been responsible for the protection of more 
than 14 million acres in the United States and have helped preserve 
more than 102 million acres in Latin America, the Caribbean, Asia and 
the Pacific. We currently have programs in all 50 states and in 30 
nations.
    Thank you, Mr. Chairman for scheduling a hearing on this important 
piece of legislation. The Conservancy presented testimony to this 
Subcommittee at its hearing on June 8, 2000, that led to the enactment 
of legislation to establish the Cahaba River National Wildlife Refuge. 
The U.S. Fish and Wildlife Service is one of our most important 
conservation partners and we are sensitive to their concerns regarding 
the continued growth and expansion of the National Wildlife Refuge 
System particularly in a time of fiscal constraints.
    The Conservancy has wrestled with many of the issues the Service is 
facing. To better orient us to achieve our mission, a framework was 
created and implemented in the 1990s. We call this framework for 
mission success Conservation by Design. This framework translates our 
broad mission into a unifying articulation of common purpose and 
direction--to align the organization in taking the most effective 
conservation action to achieve tangible, lasting results at scale.
    The reasons for developing and instituting Conservation by Design 
included a recognition that our core strategy of purchasing land for 
conservation ownership was inadequate to meet the challenges of 
protecting biodiversity, that we were not utilizing the best available 
science to the fullest extent possible, that meeting the costs of 
operations and maintenance for a system of preserves was not the most 
leveraged use of our charitable dollars, and that we needed to be more 
creative and flexible in achieving our conservation goals. Many of 
these same issues challenge the leadership and staff of the National 
Wildlife Refuge System.
    A key activity in the conservation process outlined in Conservation 
by Design is the development of ecoregional plans. In fact, the plans 
are closer to biological assessments--they identify a portfolio of 
conservation areas and ecological targets within an ecoregion that, if 
conserved, would protect the full range of biodiversity within that 
ecoregion. The identification of these portfolio sites--in essence, a 
blueprint for conservation action--is the platform for our conservation 
work. The Conservancy is committed to supporting and working with the 
Service to see how our experience with large-scale planning can help 
them craft a vision that meets their needs.
    We feel strongly, however, the Service should not halt the 
expansion of existing Refuges or the creation of new refuges while it 
develops a strategic vision for the System. We encourage the Service to 
support limited growth of the system in areas that would contribute 
significantly to protection of federal trust resources and that enjoy 
broad public support. The Cahaba River National Wildlife Refuge is one 
of those places.
Alabama is a Global Hotspot for Biological Diversity
    Recent analyses of the biological heritage of the United States 
reveal that Alabama is one of the richest states in the nation. In the 
publication States of the Union: Ranking America's Biodiversity, 
published by NatureServe and the Conservancy in 2002, scientists ranked 
states according to four key biological characteristics: diversity, 
risk, endemism and extinction. Four states in particular stand out as 
having exceptional levels of biological diversity with respect to all 
four measures: California, Texas, Hawaii and Alabama. Alabama is ranked 
2nd in number of extinct species among the 50 states (second only to 
the islands of Hawaii), 5th in overall species diversity, 4th in number 
of species at risk, and 7th in number of endemic species (i.e. those 
found only in Alabama).
    The Southeastern United States is a hot spot for freshwater 
biodiversity, resulting from the coincidence of a diverse physical 
geography, favorable climate, and a long, but dynamic, history. This 
varied landscape was spared the repeated habitat-crushing advances of 
continental ice sheets during the Pleistocene era, allowing living 
things to persist and evolve over time. Over time, changes in climate, 
stream drainage patterns, and coastline position isolated many 
populations, enabling them to diverge genetically and evolve into new 
species. This unique history is evident today in Alabama. Some 
interesting facts about Alabama's natural resources include:
    <bullet> Alabama ranks fifth in the nation in terms of biological 
diversity and, on a per square mile basis, only Florida is home to a 
greater number of species;
    <bullet> Alabama has more species of freshwater turtles, fish, 
mussels, snails and crayfish than any other state;
    <bullet> Alabama's freshwater streams and rivers contain 38% of 
the nation's native fish species, 60% of native turtles and 43% of 
native aquatic snails; and,
    <bullet> Alabama ranks near the bottom of states regarding area of 
public land designated specifically for the protection of biodiversity 
and provision of compatible outdoor recreational opportunities.
The Cahaba River and Its Tributaries are a Unique Resource
    The Nature Conservancy has identified the Cahaba River watershed in 
Alabama as one of these unique conservation opportunities. Almost fifty 
percent of all documented U.S. species extinctions since European 
settlement have occurred during this century in the Mobile River Basin, 
through which the Cahaba River courses. Alabama bears the unfortunate 
distinction of being the most extinction-prone state in the continental 
United States, with 98 species extinct.
    Within this landscape of species loss, the Cahaba River remains the 
state's longest free-flowing river, and one of our nation's most 
biologically rich. The Cahaba River basin supports 69 rare and 
imperiled species, including twelve fish and mussel species that are 
listed under the U.S. Endangered Species Act. It has more fish species, 
131, than any river its size in North America. To put this in 
perspective, the Cahaba River has more species of freshwater fish than 
the entire state of California. One of these fish is the Cahaba shiner, 
which is found only in the mainstem of this river and the nearby Locust 
Fork. Although the number of freshwater mussels and snails has declined 
sharply from historical numbers, many species are still well 
represented in the river.
    The Cahaba River is a treasure trove of botanical life as well. As 
the river flows southward into rural Bibb County, it shelters the 
largest known stands of the imperiled shoal lily (Hymenocallis 
coronaria). Celebrated locally as the Cahaba Lily, this spectacular and 
surprisingly delicate flower grows in the middle of the river, wedging 
its bulbs into crevices in the sandstone rock. Bibb County is also home 
to several unique terrestrial plant communities, centered on 
outcroppings of the unusual Ketona dolomite rock formation. These open 
gravelly, grassy islands in the otherwise forested landscape are found 
immediately adjacent to the Little Cahaba River and other tributaries 
of the Cahaba River, and virtually all examples are in the proposed 
expansion area of the Refuge. In 1992 scientists discovered eight new 
species of plants on these dolomite outcrops along the Cahaba's banks--
a discovery befitting expeditions to uncharted tropical wildernesses.
Partnerships are Important to Manage Threats to the Cahaba River
    Until recently, development was kept to a minimum by the steep-
sided Appalachian ridges of the Cahaba's headwater tributaries. 
However, population growth is pushing residential and commercial 
development from Birmingham into the Cahaba River watershed, resulting 
in increased stormwater runoff, sedimentation, and municipal wastewater 
discharges. At the same time, domestic drinking water withdrawals from 
the Cahaba divert virtually its entire flow during drought periods. 
Although threats in the upper watershed are growing, the lower two-
thirds of the watershed, where the Cahaba's biodiversity is most 
remarkable, is somewhat healthier.
    To prevent degradation of this rich biological resource, government 
agencies, conservation groups, and citizens' groups are working 
together to protect the Cahaba's rare and endemic aquatic species and 
natural communities from its headwaters to the confluence with the 
Alabama River near Selma.
    In the cities and suburbs situated in the headwaters of the Cahaba 
River, the Conservancy is working with many stakeholders to implement a 
comprehensive network of greenways to maintain the water quality of the 
Cahaba River, the primary drinking water source for the one million 
residents of the metropolitan area. Participants in this partnership 
include representatives of a comprehensive array local city and county 
governments, business and economic development interests, and 
environmental groups. The Black Warrior-Cahaba Rivers Land Trust, 
funded by Jefferson County, and the Birmingham Waterworks Board are 
actively acquiring land to protect riparian buffers in the upper 
watershed to protect water quality for drinking water and a healthy 
river.
    Along the first thirty miles of the Cahaba River downstream from 
the suburban edge of Birmingham, there is a strong interest on the part 
of the State of Alabama in eventually acquiring lands currently leased 
on a short term basis to establish a permanent Cahaba State Wildlife 
Management Area for public hunting, fishing, and other outdoor 
opportunities.
    In the lower eighty miles of the river in the Coastal Plain, 
partners plan to work with farmers and other landowners to help them 
participate fully in the existing Farm Bill programs such as the 
Wetlands Reserve Program, Conservation Reserve Program and others. In 
addition, the Conservancy hopes to acquire inholdings from willing 
sellers along the Cahaba and its tributaries where they pass through 
the Oakmulgee Ranger District of Talladega National Forest. In the 
lower Cahaba watershed, the Conservancy is working in partnership with 
various city and county governments, the State of Alabama and Alabama 
Power Company to protect the river and provide public access for 
recreational purposes.

The Proposed Expansion of the Cahaba Refuge is a Highly-Leveraged 
        Investment
    The proposed expansion of the Refuge would expand the list of 
biological resources protected many-fold. For example, the list of 
species documented would increase from about five rare plants and 25 
rare animals, to at least 66 rare plants and forty rare animal species.
    This expansion would provide an outstanding opportunity to protect 
and recover populations of many Federally-listed species on public 
land. At least twelve Federally-listed plants and animals are present 
in the area of the proposed expansion (almost ten percent of the total 
Federal threatened and endangered list for Alabama). A further four 
threatened and endangered species were historically present, presenting 
an opportunity for eventual recovery of these species too.
    The proposed expansion area includes virtually all of the unique 
Ketona dolomite glades, and almost all populations on earth of the 
eight plants new to science discovered here in the past dozen years. In 
total the proposed expansion area harbors the world's largest 
populations of at least twelve globally imperiled plants on the glades, 
and in the surrounding forests. Unexpected discoveries of rare animals 
also continue to be made in the proposed area. A very significant 
recent (2002) discovery of the Septima's clubtail dragonfly was made in 
the Little Cahaba River portions of the proposed Refuge expansion area. 
Scientists had not seen this globally imperiled species in Alabama, 
despite intensive searches, since its original discovery and 
description in the 1940's.
    The proposed expansion would increase direct protection of the 
banks of the mainstem Cahaba River from three-and-a-half miles to more 
than twenty miles and more than four miles of the Little Cahaba. Almost 
as important, it would also add protection for key feeder tributaries 
and watershed lands that are deemed critical to maintaining the water 
quality and flow of this biologically rich middle section of the river. 
These rivers and streams provide extensive high quality habitat for 
many additional common and rare aquatic animals. These waters are 
renowned for the healthy populations of game fish such as the Coosa 
(red-eyed) bass, spotted bass and southern walleye, and dozens of other 
less obvious species.
    The proposed expansion lands include extensive remnant and 
restorable riparian and bluff hardwood forests harboring breeding 
populations of many migratory songbirds. The federal/state/private 
Partners in Flight Partnership for North American bird conservation has 
ranked several of these birds to be declining and of conservation 
concern, including Kentucky Warbler, Louisiana Waterthrush, Acadian 
Flycatcher, Swainson's Warbler and Worm-eating Warbler, amongst others. 
The proposed expansion offers an opportunity to have large enough areas 
of stable habitat that would host large viable populations of these 
declining songbirds over the long term.
    The additional lands also present a major opportunity to protect 
and restore blocks of the longleaf pine forests which once covered the 
higher, drier ridges. This will contribute to the conservation of the 
Red-cockaded Woodpecker, and may help the U.S. Forest Service meet 
recovery objectives for the bird in the nearby Oakmulgee Ranger 
District. Other declining birds that would gain significant areas of 
stable habitat are the Northern Bobwhite Quail, Brown-headed Nuthatch, 
and perhaps, Bachman's Sparrow.
    Several caves are known from the proposed Refuge expansion area, 
especially along Sixmile Creek. These are biologically unexplored and, 
based on findings at caves in other nearby counties, quite possibly may 
harbor unique, cave-adapted animals found nowhere else.
    The proposed expansion would authorize eventual ownership of up to 
about 26,000 additional acres. The majority of these additional acres 
are owned by three landowners; all have indicated a willingness to be 
included in the expansion, and would be willing to consider selling at 
fair market value. The Nature Conservancy anticipates that acquisition 
of the additional 26,000 acres for the Refuge would cost between 
twenty-five and thirty-five million dollars. The length of time for 
acquisition of these lands obviously would be contingent on several 
factors, including the availability of appropriated funding for 
acquisition.

Ongoing Support for Restoration and Stewardship is Critical for 
        Conservation Success
    The expanded Cahaba River National Wildlife Refuge would protect 
significant habitat for many imperiled and declining birds, fish, 
mussels and plants, several of which are found nowhere else in the 
world, but especially unique is the land management partnership 
emerging between the USFWS, the U.S. Forest Service, The Nature 
Conservancy, Bibb County, and Hancock timber company. The Conservancy 
is working with Hancock to develop a timber restoration plan on their 
lands within the proposed Refuge expansion area. Hancock will harvest 
the loblolly pine plantations as they become mature, and the 
Conservancy will assist Hancock in meeting the slightly higher costs of 
replanting with native mountain longleaf pine rather than simply 
replanting ecologically inappropriate loblolly pine. In this way, we 
are getting a major head start on ecological restoration of the area in 
advance of more permanent protection.
    The local citizens from Bibb County strongly support the refuge 
concept. Included with this testimony is a resolution adopted 
unanimously by the Bibb County Commission expressing their strong 
support for the expansion of the Cahaba River National Wildlife Refuge. 
As direct evidence of their commitment to the Refuge, the Bibb County 
Commission, in conjunction with the Cahaba River Authority (a committee 
appointed by the Commission to monitor activities regarding the river) 
has set aside in escrow $68,000 to support operations and management of 
the Refuge.
    In the spirit of cooperation with local citizens, elected 
officials, and the federal government, The Nature Conservancy has also 
pledged $150,000 towards the establishment of this refuge. Service and 
Conservancy staffs are currently looking into various grant-funding 
programs, for example through the National Fish and Wildlife 
Foundation, in an effort to leverage these and the Bibb County funds 
further.
    The Conservancy is currently working on two crucial operations and 
management projects with Service staff that will result in direct 
savings to the agency, and allow management and restoration activities 
to commence on the ground sooner. In collaboration with faculty and 
students from Samford University, Conservancy land management staff is 
using Geographic Positioning Systems to develop an accurate and 
detailed GIS map of the road network in the Refuge for the Service. In 
close consultation with Refuge staff, Conservancy land managers are 
also developing a draft Vegetation Management Plan for the Refuge.
    Clearly, more acres will result in increased operations and 
maintenance costs for the Refuge. However, the proposed increase will 
not necessarily lead to a substantial increase in staffing at the 
Refuge--one of the primary operating expenses. The planned staffing 
level of the existing Refuge is six FTEs. When one factors in the 
strong existing (e.g., Bibb County, The Nature Conservancy and others) 
and promising new partnerships (e.g., with U.S. Forest Service), the 
Service will be in a very strong position regarding tangible assistance 
toward meeting their operations and maintenance needs.

Public Support for Protection of the Cahaba is Strong
    A very low percentage of Alabama is publicly owned. Tremendous 
support exists from people who want additional public recreational 
opportunities, such as hunting, fishing, hiking and canoeing. Evidence 
of this support can be seen in the passage of the Forever Wild land 
acquisition program, which was approved in a statewide referendum by 
84% of the voters in 1992. More than one million people--a quarter of 
Alabama's population--live within a one-hour drive of the Refuge. As 
proposed for expansion, the Refuge is clearly one of the best areas for 
an increasingly urban population to maintain their links with their 
natural heritage, and of critical importance for citizens' quality of 
life.
    The Nature Conservancy has received hundreds of calls from local 
citizens, conservation organizations, and public corporations 
expressing their support for the establishment of the Refuge and 
inquiring how they can help with this project. Local press coverage 
indicates strong support and we have not heard of anyone opposed to the 
expansion of this refuge. In addition to the Bibb County Commission, 
other supporters include the Cahaba River Society, Cahaba River 
Authority, Cahaba Trace Commission, Black Warrior-Cahaba Rivers Land 
Trust, Alabama Department of Conservation & Natural Resources, Alabama 
Rivers Alliance, and Alabama Environmental Council, amongst others.
    Members of the Congressional delegation for Alabama have 
demonstrated strong support for the Refuge. U.S. Representative Spencer 
Bachus and Governor (then U.S. Representative) Bob Riley co-sponsored 
the legislation to establish the Refuge in 2000, and both U.S. Senators 
Richard Shelby and Jeff Sessions have shown strong support for both 
establishment and subsequent appropriation of funding for land 
acquisition. Virtually all land in the original Refuge boundaries have 
been acquired with funds appropriated within the two federal fiscal 
years after establishment.
    Since the very beginning of this partnership, The Nature 
Conservancy has been working very closely with the USFWS on the 
establishment and subsequent management planning and implementation 
steps. In light of the significant additional biological resource and 
other public trust values outlined here, and the strong collaborative 
partnerships that are developing to assist the agency with operations 
and management, we strongly support this proposed expansion.
    The proposed expansion of the Cahaba River National Wildlife Refuge 
represents an outstanding opportunity to protect a large number of some 
of the rarest species and habitats in the nation via a remarkable 
public private partnership. The Nature Conservancy requests Committee 
support of H.R. 2623.
    Thank you for your attention. I would be happy to answer any 
questions you may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. Oberholster. I 
appreciate it. We may have a vote within about 5 minutes, so 
we're going to move on right away to questions.
    I would like to ask either Judge Westmoreland or Miss King 
or Mr. Riley--maybe you can speak to the issue in Florida. 
Based on your testimony, the Fish and Wildlife Service made a 
mistake in their mapping of these areas based on the Act. Can 
any one of you tell me who found the mistake and when was it 
found, as far as the mapping errors that took these people out 
of the National Flood Insurance Program?
    Mr. Riley. I can speak to that, Mr. Chairman, for a moment, 
because there's as common answer to all three, in some sense, 
and that is that, as I believe you're familiar, we are 
working----
    Mr. Gilchrest. Are you remapping, are you digitizing 
existing maps?
    Mr. Riley. Exactly.
    Mr. Gilchrest. How did you find the error?
    Mr. Riley. The error in Cedar Keys was specifically found 
when there was a request from an individual about whether their 
property was within the unit or not, and in the process of 
digitizing that area to provide a precise answer to that 
individual----
    Mr. Gilchrest. When they first asked the question, did you 
have an answer, whether they were in or out of the program?
    Mr. Riley. These three individuals were given an answer 
previously. A separate individual more recently asked the 
question and, given the more current technology when providing 
an answer to that person, we discovered that had we used the 
digitized technology, which hadn't been available the first 
time, we would have had a different answer to the first three 
individuals.
    Mr. Gilchrest. So the first three individuals were told 
they were not covered?
    Mr. Riley. They were told that they were----
    Mr. Gilchrest. So they built, and are they covered now by 
Federal flood insurance?
    Mr. Riley. They would not be covered by Federal flood 
insurance according to the correct interpretation of the maps.
    Mr. Gilchrest. So they're not covered now?
    Mr. Riley. They would not be covered. But they were told 
they would be covered.
    Mr. Gilchrest. But they're not covered?
    Mr. Riley. Correct.
    Mr. Gilchrest. What's happening with them? They're just not 
covered?
    Mr. Riley. At the moment, the current law would have to be 
that--They have been under the assumption that they could build 
and have flood insurance.
    Mr. Gilchrest. So there was a mistake at Fish and Wildlife 
thinking they were not inside the boundary. Who discovered 
that? Do you work with the Mitigation Division within FEMA that 
deals with Federal flood insurance, who gets it and who 
doesn't?
    Mr. Riley. Right. They contact us. They may be the ones to 
contact us frequently, and it's in response to a request from 
someone wanting to know which side of the boundary they're on.
    What we do now, any time anyone requests that information 
and they're anywhere close to a boundary, we do make a digital 
read of the map to ensure that we're giving a precise answer. 
In doing that, other landowners near where we may be doing that 
analysis, we can, as happened here, could discover that 
previous answers provided some years ago before we were capable 
of a digitized answer may have been given an incorrect 
determination.
    Mr. Gilchrest. Are you digitizing the entire system now? Is 
it done?
    Mr. Riley. Currently we're not. We are conducting a pilot 
study to----
    Mr. Gilchrest. You only do it when a request comes in?
    Mr. Riley. We are looking forward to providing information 
about a pilot study that we're undertaking, and we hope that 
the information in the pilot study would demonstrate----
    Mr. Gilchrest. So right now you're only doing it when a 
request comes in. You're only using the digitizing and mapping 
technology when a request comes in to ask whether or not 
they're in or out of the system.
    Mr. Riley. The priority would be when someone requests it 
or it's part of the pilot study. We do hope to digitize 
everything. Currently, the resources are allowing the pilot 
study to go forward, or upon request.
    Mr. Gilchrest. I think we have three requests today to be 
removed from the system. Can you tell me how many requests are 
out there?
    Mr. Riley. I can't tell you exactly.
    Mr. Gilchrest. Are these the last three requests that we're 
going to see over the next 20 years?
    Mr. Riley. I very much doubt it, sir. I very much expect 
that over time, as we digitize the rest of the system, we will 
discover additional errors that would need correction.
    Mr. Gilchrest. So the pilot project is to take just certain 
areas within the system to see how accurate it is?
    Mr. Riley. Fifty units in 25 OPAs, 75 areas generally are 
being digitized, and we believe it will demonstrate that a 
digital system will provide more accurate and more complete and 
quick----
    Mr. Gilchrest. I see. Is there a policy within the Service 
that if somebody is told they're outside the system and they 
can get Federal flood insurance, and all of a sudden actually 
they are inside--for example, in this instance, inside the 
system, so they can get Federal flood insurance, but they 
built, I assume, because they thought they were protected, 
what's the policy in the Service for those people?
    Mr. Riley. Our policy is to follow the law and tell them we 
made a correction and the law requires them to not be eligible 
for Federal flood insurance.
    Mr. Gilchrest. Miss King, can you tell me what a maritime 
forest is?
    Ms. King. A maritime forest----
    Mr. Gilchrest. And welcome to Washington, too. Your 
testimony was very well delivered.
    Ms. King. Thank you. I'm a business major, not an 
environmentalist, but I have been at Bald Head long enough to 
know what a maritime forest is.
    Mr. Gilchrest. It sounds like you're from North Carolina.
    Ms. King. I am. I do have that accent, I know.
    A maritime forest on Bald Head Island, there is almost 200 
acres of maritime forest on the Island. It is primarily a dense 
forest where things just grow naturally. Bald Head Island I 
think is the northernmost point where palm trees grow 
naturally.
    Mr. Gilchrest. Really?
    Ms. King. So our maritime forest is very dense and thick 
with live oaks, a lot of indigenous vegetation that has been 
unspoiled.
    Mr. Gilchrest. Thank you very much. It sounds like a 
beautiful place.
    Ms. King. It is.
    Mr. Gilchrest. We have a vote on, so I'm going to yield now 
to Mr. Pallone.
    Mr. Pallone. I'm going to try to be brief, too, because I 
know we want to finish with this panel before the vote.
    These questions are for Mr. Riley. You mentioned the 
digital mapping. When you talked about these future map errors 
that might be found, is it primarily in full units or in the 
OPAs? In other words, is the problem really with the OPA 
boundaries?
    Mr. Riley. There could be problems with both. The cause of 
the problem is slightly different, of course. The OPAs would 
have problems because we are learning more about the actual 
boundaries, legal ownership boundaries of the conservation 
areas. We believe the intent of Congress was to follow those 
boundaries. The example in North Carolina is an occurrence 
there.
    Examples of errors with system unit boundaries would more 
likely be the example in Cedar Keys, where the more rough maps 
attempted to follow geographical markers where the coastal 
areas needed protection were, and more current technology 
allows us to follow those more precisely. So it could occur in 
either case, for slightly different reasons.
    Mr. Pallone. OK. Turning to the refuge bills, in your 
statement you note that the Service is currently developing a 
plan to guide future growth and land acquisition for the 
National Wildlife Refuge System. When would Congress expect to 
see a final plan from the administration?
    Mr. Riley. I'm aware, Mr. Congressman, that you have been 
awaiting that for awhile. We do believe that within the very 
near future we will be contacting your staff and other 
interested congressional staffers to provide a briefing on 
that.
    Mr. Pallone. Weeks, months, the near future?
    Mr. Riley. Hopefully weeks at this point.
    Mr. Pallone. All right. Thank you.
    I think I'm going to limit it to that, Mr. Chairman.
    Mr. Gilchrest. The gentlelady from Guam.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    I also have a question that was on Mr. Riley's list on H.R. 
2619. Under the language of Public Law 100-653, which expanded 
the size of the refuge, the Fish and Wildlife Service was 
instructed to complete a number of specific projects on the 
newly required lands. These goals included public access foot 
trails, an access road, a fence to protect wildlife, native 
plant restoration, and the establishment of a recreation area.
    What is the status of each of these goals?
    Mr. Riley. I apologize, Madam Congresswoman. I'm not 
personally familiar with that. That's certainly something I can 
try to provide to you after the hearing.
    Ms. Bordallo. All right. No one else can answer that. All 
right.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you very much.
    We do have a vote on. We will be in touch with you over the 
next several weeks, if it's all right, to ask additional 
questions as we try to close the book on some of these issues.
    Mr. Riley, thank you for coming today, representing the 
Fish and Wildlife Service. Judge, good luck with your community 
down there in Texas. You are represented very well by Mr. Paul. 
Miss King, it sounds like you come from a stunningly beautiful 
area and we would like to help you with this issue and help 
preserve the natural beauty of that place. Mr. Oberholster, 
thank you for coming up to help Mr. Bachus preserve that 
wonderful place down there in Alabama. Thank you all very much 
for coming to testify here.
    We will adjourn the hearing and start the markup, my guess 
is within a half-an-hour. This hearing is adjourned.
    [Whereupon, at 11:15 a.m., the Subcommittee proceeded to 
other business.]


</pre></body></html>
